No. 19-____
IN THE

Supreme Court of the United States
————
BUCK LEON HAMMERS,
Petitioner,

v.
UNITED STATES,

Respondent.
————
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Tenth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
RYAN A. RAY
Counsel of Record
NORMAN WOHLGEMUTH
CHANDLER JETER
BARNETT & RAY, P.C.
2900 Mid-Continent Tower
401 S. Boston Ave.
Tulsa, Oklahoma 74103
(918) 583-7571
rar@nwcjlaw.com
Counsel for Petitioner
April 9, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
1. Mr. Hammers was the Superintendent of a school
district in rural Oklahoma. A school employee, Pam
Keeling, engaged in fraudulent invoicing, ordering, and
check writing over several years. The Government’s
theory was that Mr. Hammers, by virtue of his position,
should have been involved in all these activities, and,
therefore, he inferentially must have been. Without
actual evidence of wrongdoing, the Government obtained
convictions only on the conspiracy counts (Mr. Hammers
was acquitted of all seven (7) substantive counts). The
first question presented is:
Whether the Tenth Circuit improperly found, failing
to apply this Court’s authority and contrary to other
courts of appeals and other of its own prior decisions,
sufficient evidence for Mr. Hammers to be convicted of
conspiracy based solely upon inferences the jury could
have drawn from his executive position at the school
and his association with Keeling.
2. Days after the FBI executed a search warrant at
the school, Keeling committed suicide. Before doing
so, she left a note in which she stated:
“I Pam Keeling take full responsibility for
everything at Grant School. No vendor nor
Mr. Hammers had anything to do with what
happened. I am truly sorry and pray for
forgiveness.” (hereafter, the “Note”).
The Note was excluded from evidence at trial as
hearsay. The second question presented is:
Whether the Tenth Circuit’s decision to exclude the
Note was contrary to Chambers v. Mississippi, 410
U.S. 284, 302 (1973) and its progeny in that it never
gave any consideration to the exculpatory nature of
the Note in its evidentiary analysis.
(i)

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

TABLE OF AUTHORITIES ................................

v

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS ...........................

1

INTRODUCTION ................................................

3

STATEMENT OF THE CASE ............................

5

REASONS FOR GRANTING THE WRIT ..........

13

I. The Court Should Grant The Petition To
Decide The First Question Presented ......

15

A. The Tenth Circuit’s Decision in this
Case Conflicts with Numerous Settled
Principles from other Courts’ of Appeals
Decisions (Including Its Own) .............

16

B. The First Question Presented Is
Important And Recurring ...................

20

C. The Decision Below Is Wrong .............

21

II. The Court Should Grant The Petition To
Decide The Second Question Presented...

25

A. The Tenth Circuit’s Decision Failed to
Apply Settled Law from this Court’s
Decisions Regarding the Exclusion of
Exculpatory Evidence ..........................

26

B. The Decision Below Is Wrong .............

27

CONCLUSION ....................................................

32

(iii)

iv
TABLE OF CONTENTS—Continued
APPENDIX

Page

APPENDIX A: OPINION, Court of Appeals
for the Tenth Circuit (November 12, 2019) ...

1a

APPENDIX B: ORDER, Court of Appeals
for the Tenth Circuit (December 12, 2019) ...

27a

APPENDIX C: ORDER, District Court for
the Eastern District of Oklahoma (February
6, 2018) ...........................................................

28a

APPENDIX D: APPEARANCES, District
Court for the Eastern District of Oklahoma
(February 1, 2018) ..........................................

31a

APPENDIX E: TRANSCRIPT OF JURY
TRIAL PROCEEDINGS (Volume III of IV),
District Court for the Eastern District of
Oklahoma (February 8, 2018) ........................

36a

APPENDIX F: Pam Keeling Handwritten
Note (February 2, 2016) .................................

49a

v
TABLE OF AUTHORITIES
CASES

Page(s)

Chambers v. Mississippi,
410 U.S. 284 (1973) ....................... 25, 26, 27, 31
Direct Sales Co. v. United States,
319 U.S. 703 (1943) ...................................

15

Elonis v. United States,
135 S. Ct. 2001 (2015) ...............................

20

Harris v. Thompson,
698 F.3d 609 (7th Cir. 2012) .....................

27

Holmes v. South Carolina,
547 U.S. 319 (2006) ...................................

26

Idaho v. Wright,
497 U.S. 805 (1990) ............................. 28, 29, 30
Ingram v. United States,
360 U.S. 672 (1959) ...................................

15

Kubsch v. Neal,
838 F.3d 845 (7th Cir. 2016) .....................

26

Lunbery v. Hornbeak,
605 F.3d 754 (9th Cir. 2010) .....................

27

Miller v. Stovall,
742 F.3d 642 (6th Cir. 2014) ..................... 29, 30
Nieves v. Bartlett,
139 S. Ct. 1715 (2019) ...............................

20

Pueblo of Jemez v. United States,
366 F. Supp. 3d 1234 (D.N.M. 2018) ........

30

Rivera v. Director, Dep’t of Corrections,
915 F.2d 280 (7th Cir. 1990) .....................

27

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Snow Ingredients Inc v. SnoWizard Inc.,
833 F.3d 512 (5th Cir. 2016) .....................

20

Stallings v. Tansy,
28 F.3d 1018 (10th Cir. 1994) ...................

18

Staples v. United States,
511 U.S. 600 (1994) ...................................

20

Taylor v. Curry,
708 F.2d 886 (2d Cir. 1983) ......................

27

United States v. Austin,
786 F.2d 986 (10th Cir. 1986) ..................passim
United States v. Banks,
514 F.3d 769 (8th Cir. 2008) .....................

30

United States v. Bradberry,
517 F.2d 498 (7th Cir. 1975) .....................

15

United States v. Burgos,
703 F.3d 1 (1st Cir. 2012) .........................

15

United States v. Chase,
503 F.2d 571 (9th Cir. 1974) .....................

18

United States v. Christy,
916 F.3d 814 (10th Cir. 2019) ...................

15

United States v. Dorman,
860 F.3d 675 (D.C. Cir. 2017) ...................

15

United States v. Dunn,
564 F.2d 348 (9th Cir. 1977) .....................

15

United States v. Eisen,
974 F.2d 246 (2d Cir. 1992) ......................

18

vii
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Eley,
723 F.2d 1522 (11th Cir. 1984) .................

18

United States v. Falcone,
311 U.S. 205, 85 L. Ed. 128,
61 S. Ct. 204 (1940) ...................................

15

United States v. Fuchs,
467 F.3d 889 (5th Cir. 2006) .....................

20

United States v. Ganji,
880 F.3d 760 (5th Cir. 2018) ....................passim
United States v. Hammers,
942 F.3d 1001 (2019) ................................

1

United States v. Hurn,
368 F.3d 1359 (11th Cir. 2004) .................

26

United States v. Jones,
44 F.3d 860 (10th Cir. 1995) .....................

15

United States v. Klein,
515 F.2d 751 (3d Cir. 1975) ......................

15

United States v. Lalley,
257 F.3d 751 (8th Cir. 2001) .....................

20

United States v. Martinez,
514 F.2d 334 (9th Cir. 1975) .....................

18

United States v. Moore,
810 F.3d 932 (4th Cir. 2016) .....................

28

United States v. Moore,
824 F.3d 620 (7th Cir. 2016) .....................

31

United States v. Paguio,
114 F.3d 928 (9th Cir. 1997) .....................

28

viii
TABLE OF AUTHORITIES—Continued
Page(s)
United States v. Parigian,
824 F.3d 5 (1st Cir. 2016) .........................

20

United States v. Pierre,
932 F.2d 377 (5th Cir. 1991) .....................

15

United States v. Rahseparian,
231 F.3d 1257 (10th Cir. 2000) ................passim
United States v. Restrepo-Granda,
575 F.2d 524 (5th Cir. 1978) .....................

18

United States v. Rufai,
732 F.3d 1175 (10th Cir. 2013) ................passim
United States v. Shaw,
824 F.2d 601 (8th Cir. 1987) .....................

30

United States v. Smalls,
605 F.3d 765 (10th Cir. 2010) ...................

29

United States v. Swafford,
512 F.3d 833 (6th Cir. 2008) .....................

15

United States v. Veltmann,
6 F.3d 1483 (11th Cir. 1993) .....................

27

Williamson v. United States,
512 U.S. 594 (1994) ...................................

29

CONSTITUTION
U.S. Const. amend. V ................................... 1, 27
U.S. Const. amend. VI ..................................

27

STATUTES
28 U.S.C. § 1254(l) ........................................

1

ix
TABLE OF AUTHORITIES—Continued
RULES

Page(s)

Fed. R. Evid. 803(b)(3).................................. 11-12
Fed. R. Evid. 804 ..........................................

1

Fed. R. Evid. 804(b)(3).................................. 12, 28
Fed. R. Evid. 807 ................................ 2, 13, 30, 31

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Buck Leon Hammers, respectfully petitions for a writ of certiorari to review the judgment of
the United States Court of Appeals for the Tenth
Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a –
26a) is published at 942 F.3d 1001. None of the district
court’s orders and findings are not reported in any
reporter or service, but are included in the appendix to
this Petition (Pet App. 28a – 48a).
JURISDICTION
The judgment of the court of appeals was entered on
November 12, 2019. Pet. App. 1a. The court of appeals
denied petitioner’s timely petition for rehearing and/or
rehearing en banc on December 12, 2019. Pet. App.
27a. On March 3, 2020, Justice Sotomayor extended
the time within which to file a petition for a writ of
certiorari to and including April 10, 2020. No. 19A967.
This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).
RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The Due Process Clause provides: “No person shall
. . . be deprived of life, liberty, or property, without due
process of law.” U.S. Const. amend. V.
Federal Rule of Evidence 804 provides, in pertinent
part:
(a) Criteria for Being Unavailable. A declarant is considered to be unavailable as a
witness if the declarant:

2
* * *
(4) cannot be present or testify at the trial
or hearing because of death or a then-existing
infirmity, physical illness, or mental illness;
* * *
(b) The Exceptions. The following are not
excluded by the rule against hearsay if the
declarant is unavailable as a witness:
* * *
(3) Statement Against Interest. A statement that:
(A) a reasonable person in the declarant’s position would have made only if the
person believed it to be true because, when
made, it was so contrary to the declarant’s
proprietary or pecuniary interest or had so
great a tendency to invalidate the declarant’s
claim against someone else or to expose the
declarant to civil or criminal liability; and
(B) is supported by corroborating circumstances that clearly indicate its trustworthiness, if it is offered in a criminal case
as one that tends to expose the declarant to
criminal liability.
Federal Rule of Evidence 807 provides, in pertinent
part:
(a) In General. Under the following conditions, a hearsay statement is not excluded
by the rule against hearsay even if the
statement is not admissible under a hearsay
exception in Rule 803 or 804:

3
(1) the statement is supported by sufficient
guarantees of trustworthiness—after considering the totality of circumstances under
which it was made and evidence, if any,
corroborating the statement; and
(2) it is more probative on the point for
which it is offered than any other evidence
that the proponent can obtain through reasonable efforts.
INTRODUCTION
The case squarely presents the question of whether
“executive negligence” and mere association with a
person committing a crime is enough to sustain
convictions that require proof of knowing intent to
defraud or knowing intent to embezzle. The Government’s case at trial was premised upon the testimony
of an Oklahoma State Education Department Employee who explained how the invoicing and purchase
order process “should have operated” at Mr. Hammers’
school district, the Grant–Goodland Public Schools
(“GGPS”). The Government then called witnesses who
explained how GGPS’s actual practices did not comply.
The Government also presented evidence establishing that GGPS issued checks that were fraudulent,
and that the surrounding circumstances were highly
suspicious. But there was no evidence of Mr. Hammers’
involvement. The only testimony at trial was that Mr.
Hammers’ signature—to the extent it was present on
any of the fraudulent checks—was a forgery.
The Government’s trial evidence failed to demonstrate that Mr. Hammers signed any of the purchase
orders, invoices, or checks at issue. The evidence
showed that Mr. Hammers’ administrative assistant,

4
Pam Keeling, often signed various items for him and
that he delegated his duties as purchasing agent to
Keeling. Keeling, by all accounts, was the individual
with the ability to create purchase orders and write
checks. Vendors submitted their invoices to Keeling as
well. She prepared the information for the GGPS
Board as to payments to vendors and was the individual who prepared for the school’s audits. Three bank
tellers who testified at trial also identified Keeling as
the individual who cashed GGPS checks at the banks.
The Government did not present any evidence that
Mr. Hammers, in fact, agreed with Keeling to commit
the charged offenses. The Government’s own handwriting expert testified that there were substantial
“gross pictorial dissimilarities” between a sample of
Mr. Hammers’ actual signature and the fraudulent
checks, and he further explained that he observed the
“presence of unexplained characteristics” in the name
Buck Hammers as written on the fraudulent checks.
The expert did not even examine the purchase orders
at issue. There was no testimony or other evidence
that Mr. Hammers signed any of the documents.
Mr. Hammers was acquitted of all seven (7) substantive counts of bank fraud and embezzlement of
federal funds at trial. He was, however, convicted of
two conspiracy counts to commit those same offenses.
Both the district court and the Tenth Circuit’s findings
that there was sufficient evidence to sustain these two
convictions was contrary to decisions of this Court,
other panels of the Tenth Circuit and other courts of
appeals on analogous facts. The controlling decisions
of this Court and those other courts were not discussed
by the Tenth Circuit at all.
That insufficiency does not stand alone, however.
For Keeling committed suicide the day after the

5
allegations in the case came to public light. Before
doing so, she left a suicide note that completely exculpated Mr. Hammers. This Court has repeatedly held
that exculpatory evidence in a criminal case is of
unique quality and the Rules of Evidence cannot be
mechanistically applied to exclude such evidence. But
neither the district court nor the Tenth Circuit ever
applied this principle in any manner, which is contrary to this Court’s authority.
Due to the Tenth Circuit’s decision that is contrary
to decisions of this Court, prior panels of the Tenth
Circuit, and other courts of appeals, this Court should
grant this Petition to resolve these conflicts with
existing law.
STATEMENT OF THE CASE
1. Mr. Hammers was the Superintendent of GGPS
from 2001 until 2016. (Pet. App. 2a – 3a). Issues with
GGPS’s invoicing process were first noted by GGPS’s
outside auditor in 2011. (Id.). Not coincidentally,
Keeling became the encumbrance clerk for GGPS that
same year. (App. Vol. III at 184, 190-91).1 Keeling’s
aunt, Jimmie Sue Miller, was the treasurer and
minutes clerk for GGPS, and Keeling was the deputy
treasurer. (App. Vol. II at 173-74). The general process
for purchasing goods or services at GGPS began with
a requisition or invoice being submitted to the encumbrance clerk, Keeling, who would then issue a purchase order. (App. Vol. III at 287). The purchase
orders would be listed in a consent agenda and submitted to the Board for approval in a Board packet prepared by Ms. Miller and Keeling. (App. Vol. I at 19596; App. Vol. III at 318).
1

The citations beginning “App.” are made to Mr. Hammers’
Appendix submitted at the Tenth Circuit Court of Appeals.

6
Keeling, as the encumbrance clerk would write and
print the checks, which would be included in the Board
packet and signed at the Board meeting. (App. Vol. II
at 171-72; App. Vol. III at 286-89, 362, 387, 396).
The checks would then be registered by Ms. Miller,
the treasurer, and sent to the appropriate vendors.
(App. Vol. II at 171-72). GGPS utilized the Municipal
Accounting Software System (“MAS”) for its accounting software, which has a form purchase order. (Id. at
174-75; see App. Vol. VI at 823). A check cannot be
printed if the check exceeds the amount of the purchase order, but within MAS, the encumbrance clerk
has the ability to amend and add funds to a purchase
order. (App. Vol. I at 193-94).
A consent agenda listing all the purchase orders
submitted to the Board for approval is included in the
Board packet. The consent agenda was prepared by
Ms. Miller and Keeling. (App. Vol III at 293, 319-20).
There was testimony that the Board never failed to
approve any item on the consent agenda. (Id. at 323).
If the Board had a question about a check, the Board
would ask Ms. Miller. (App. Vol. III at 322).
2. At trial, the Government presented testimony of
eight vendors. Each vendor-identified check purported
to be endorsed by such vendor; but the respective
vendors denied endorsing the checks. (See, e.g., App.
Vol. III at 343-349, 358-361, 370-376, 391, 403-404,
436-440, 447-458; App. Vol. IV at 598-601). Many of
the vendors also testified regarding false invoices that
the respective vendors did not prepare. (App. Vol. III
at 355-57, 371, 376, 392, 431-32, 448; App. Vol. IV at
595-96).
Many of the checks and purchase orders bore what
purported to be the signature of Mr. Hammers; but
Mr. Hammers, like the vendors and other witnesses,

7
vehemently denied he signed such documents. (App.
Vol. IV at 629-31). None of the witnesses could positively identify Mr. Hammers’ signature, nor state
they had seen him sign any of the documents. In fact,
the Government presented the testimony of Peter
Belcastro, Jr., an FBI-employed forensic document
examiner, who noted “gross pictorial dissimilarities”
in the known sample of Mr. Hammers’ signature and
some of the fraudulent checks. (App. Vol. III at 437).
The Government’s case relied in large part on the
testimony of Nancy Hughes, the Director of Finance
with the Department of Education, who testified
regarding the process that should be followed when a
public school in Oklahoma makes a purchase and
issues a check. Through Ms. Hughes, the Government
attempted to demonstrate that Mr. Hammers, as
purchasing agent and superintendent, necessarily
would have been involved in approving purchase
orders. (App. Vol. II at 160-221). But since she was
never present at GGPS when any of the events at issue
occurred, nor did she speak directly to anyone who
was, Ms. Hughes did not and could not testify to the
actual events at issue. Ms. Hughes also reviewed one
of the purchase orders at issue in the case. She noted
that it looked like a blanket purchase order and that
funds were added to the purchase order at some point
after the funds were encumbered. This is demonstrated by the fact that the encumbrance date and the
date the funds were added to the purchase order were
different. (App Vol. II at 179-181, App. Vol. VI at 822).
Further, the purchase order had been printed approximately a year after the funds had been encumbered.
(App. Vol. II at 198-99, 260-61).
Kimberly Fowler was the Government’s only witness that had actually worked in the administrative

8
office of GGPS with Mr. Hammers and Keeling. (App.
Vol. III at 463-495). Ms. Fowler testified that she once
assisted Ms. Keeling in preparing for an audit, and
that Ms. Keeling was the individual who prepared
for audits. (Id. at 476-78, 491). She did not recall Mr.
Hammers being present and stated he left in the
afternoons. Further, Ms. Fowler testified that Keeling
once asked her to sign a stack of purchase orders, but
she refused. (Id. at 494).
Although many of the documents bore what purported to be Mr. Hammers’ signature, the Government
failed to present any evidence that the fraudulent
purchase orders or checks were ever presented to
the Board. In fact, Cathie Pugh, Vice-President of the
Board, testified that “sometimes there would be purchase orders at the board meetings, sometimes not.”
(App. Vol. III at 331).
The Government also attempted to prove that Mr.
Hammers had cashed the fraudulent checks; but none
of the tellers could testify that Mr. Hammers had in
fact cashed any of the checks at issue. (See App. Vol.
IV at 520-560). Rather, the evidence established that
it was Keeling who would go through the drive-thru at
least monthly and cash checks. (See id. at 522-24, 552,
554, 559). Keeling’s preferred teller and friend, Sheila
Smith, would cash any check Keeling asked her to
cash, and instructed the other tellers to do the same.
(Id. at 539, 558-59). There was no evidence that Mr.
Hammers received any of the money from the checks
that Keeling cashed.
Mr. Hammers testified that he never signed the
checks (id. at 494); Keeling never asked him to sign
any checks (id.); he let Keeling sign his expense checks
because he trusted her completely (id. at 495); although he read over the consent agenda prior to board

9
meetings, he did not sign checks for the general fund;
if he had been presented a purchase order for his
signature that was dated eight to ten months after the
purchase order had been made, it would have been an
issue (id. at 498-99); he did not cash the checks presented and did not receive any of the funds (id. at 500);
he did not have MAS on his computer and would not
have any idea how to create a purchase order or
invoice.
2. On January 28, 2016, the FBI and the Department of Education, Office of the Inspector General
served a search warrant at the administrative offices
of GGPS and seized documents and electronic files.
(App. Vol. I at 16).
Soon after the warrant was served, Keeling informed Ms. Miller, that “she was going to tell the
authorities that she did it.” (App. Vol. XIII at 1618).
On February 1, 2016, Keeling and Mr. Hammers were
suspended by the GGPS Board. (App. Vol. XIV at
1760).
On February 2, 2016, Keeling died from a selfinflicted gunshot wound. (App. Vol. XIII at 1622). Ms.
Keeling left four suicide notes on a Bible—three to
her family members and one “to whom it may concern”
at GGPS. (Id. at 1609-1616, 1622). The note to
GGPS stated: “I Pam Keeling take full responsibility
for everything at Grant School. No vendor nor Mr.
Hammers had anything to do with what happened.
I am truly sorry and pray for forgiveness.” (Id. at 16151616) (hereinafter, the “Note”).
The Government filed a motion in limine to exclude
the Note, which exculpated Mr. Hammers. (App. Vol.
I at 15-20). Mr. Hammers responded arguing, among
other things, that the Note was a statement against

10
interest and admissible under the residual exception
to the hearsay rule. (Id. at 40-44).
The district court granted the Government’s motion
in limine based upon its finding that the Note was not
a statement against interest and did not fall under the
residual exception to the hearsay rule because there
were no circumstances indicating the trustworthiness
of the statement. (Id. at 45-46, 125-128).
Mr. Hammers’ counsel reurged the issue at trial,
and the district court excluded the Note. The district
court, however, ruled during trial that the verbal
statement by Keeling to Ms. Miller, taking responsibility for the crimes—made at almost exactly the same
time—was supported by corroborating circumstances
and found it admissible. (App. Vol. III at 497-514; App.
Vol. IV at 688-89).
3. Procedurally, at the conclusion of the Government’s evidence, Mr. Hammers moved for a judgment
of acquittal, which the court denied. (App. Vol. IV
at 605-615). Mr. Hammers moved for a judgment of
acquittal at the conclusion of the case, which the court
again denied. (App. Vol. IV at 685).
The jury convicted Mr. Hammers of the conspiracy
charges, but acquitted him of all substantive embezzlement and fraud charges. (App. Vol. I at 98).
4. On appeal, Mr. Hammers raised several assertions of error. As relevant here, he urged that there
was insufficient evidence to support his two conspiracy
convictions and that those convictions violated the
fundamental principle that a court may not “uphold
a conviction. . . that was obtained by nothing more
than ‘piling inference upon inference’, . . . or where
the evidence raises no more ‘than a mere suspicion of

11
guilt.’” United States v. Rahseparian, 231 F.3d 1257,
1261–62 (10th Cir. 2000) (Opening Brief, at 32).
Mr. Hammers also asserted that the exclusion of
the Note violated his constitutional right to present
a defense—especially given its uniquely exculpatory
nature—and also was error under the Rules of Evidence, expressly noting that it conflicted with decisions of other courts of appeals on the issue.
4. The Tenth Circuit rejected Mr. Hammers’ claims.
It did not discuss or apply the authority requiring
more than “piling inference upon inference” in rejecting Mr. Hammers’ insufficiency-of-the-evidence claim.
In rejecting the claim, the court of appeals merely
recounted the elements of the two counts of conviction and made a very broad recitation of general
insufficiency-of-the-evidence claims—without mentioning this Court’s more specific rules for conspiracy
counts. Then, the court of appeals recited Mr. Hammers’
educational background, his position at GGPS, and
the manner in which the ordering, invoicing, and
payments processes should have occurred at the
school. Further, the court of appeals explained how
check cashing should have occurred at the local bank,
and then inaccurately described trial testimony about
Mr. Hammers’ signature and a particular check. The
court of appeals concluded by noting that the jury
could have rejected Mr. Hammers’ testimony. From
these statements, the court of appeals found sufficient
evidence to sustain the convictions.
As to the exclusion of the Note, the court of appeals
never considered the exculpatory nature of the Note.
It concluded (erroneously) that it did not have to do so.
No court has ever factored the exculpatory nature
of the Note in the evidentiary analysis, which this
Court’s decisions require. In considering Fed. R. Evid.

12
803(b)(3)’s statement-against-interest exception to the
hearsay rule, the court of appeals raised an issue
never discussed by any party or relied upon by the
district court—namely, whether the statement “No
vendor nor Mr. Hammers had anything to do with
what happened” was within the scope of Fed. R. Evid.
804(b)(3) and decided it against Mr. Hammers without
an opportunity for him to be heard on that score.2
Further, because the court of appeals concluded that
“Keeling had no intention of sticking around to face
criminal prosecution,” (Pet. App. 9a), it found that the
statement was not against her interest. Though it
claimed that “the district court made clear [that] the
concerns regarding Ms. Keeling’s rationality in this
case do not amount to a per se rule that suicide notes
are always irrational,” the court of appeals justified its
conclusion that the Note was not corroborated by
sufficient guarantees of trustworthiness by things
that would apply to everyone that commits suicide and
leaves a self-inculpatory suicide note that exculpates
another person. It “questioned whether Ms. Keeling
was in a rational state of mind shortly before committing suicide,” (Pet. App. 9a), which of course applies to
all persons committing suicide. Further, it found her
to be “dishonest and untrustworthy in committing the
charged fraud,” (Pet. App. 10a), which she admitted in
the Note (and the court of appeals pointed to no other
evidence of her dishonesty) and which were her only
known dishonest acts.3 Finally, the court of appeals
2

Mr. Hammers raised this issue in his Petition for Rehearing,
which was summarily denied without any substantive analysis.
See also infra Note 9.
3

Inconsistently, the district court ruled during trial that a
verbal statement by Keeling to Ms. Miller, taking responsibility
for the crimes—made at almost exactly the same time—
was supported by corroborating circumstances and found it

13
“raised [a] concern[] of whether Keeling was “trying to
re-write history . . . perhaps wanting to take guilt on
[herself] to clear someone that [she] may have some
close relationship with.” (Id., internal quotations
omitted).
On the score of the residual exception of Fed. R.
Evid. 807, the court of appeals largely parroted its conclusion as to the statement-against-interest exception
in finding that the Note did not offer guarantees of
trustworthiness. The court of appeals did, however,
observe that Mr. Hammers’ position was “persuasive”
and that other courts of appeals had adopted his position. The court of appeals simply concluded that “reasonable minds may differ” on the issue, and therefore
demurred to affirming the district court.
5. The court of appeals denied Mr. Hammers’
timely petition for panel rehearing and/or rehearing
en banc. Pet. App. 27a. The court of appeals order
doing so has no substantive analysis of any issue presented in the petition. See id.
REASONS FOR GRANTING THE WRIT
The decision in this case affirming Mr. Hammers’
conspiracy convictions is aberrational and in conflict
with prior decisions of this Court, the Tenth Circuit
court of appeals, and other courts of appeals. In contravention of settled law, it allows conspiracy convictions to stand on a theory of executive negligence. The
statutes of conviction, however, clearly require a much
admissible. (App. Vol. III at 497-514; App. Vol. IV at 688-89). The
court of appeals noted this ruling in its background discussion
(Pet. App. 5a), but did not mention it again. This finding is
irreconcilable with at least the finding on the residual exception,
as lack of corroboration was the district court’s only basis for
excluding the Note under that provision.

14
greater mens rea, a proposition no one dare dispute.
No court has previously adopted this view, and,
indeed, the Tenth Circuit itself has previously rejected
it. This Court has also long held that the analysis of a
conspiracy conviction challenged for insufficient evidence requires a different analytical approach, which
the Tenth Circuit declined to engage in here, even
though Mr. Hammers’ briefing repeatedly urged the
exact standard from this Court’s authority. The courts
of appeals that have applied this Court’s special analytical rules to conspiracy convictions challenged for
insufficiency on analogous or more egregious facts
than present here have easily found the evidence
insufficient. The court of appeals’ failure to apply that
authority here cries out for certiorari.
Further, the court of appeals affirmed exclusion of
the Note, which entirely exculpated Mr. Hammers
without consideration of the Note’s exculpatory quality. That quality had to be considered, and the rules
of evidence could not be mechanistically applied to
keep such qualitatively unique evidence from the
jury’s eyes and ears. Yet, that is precisely the analysis
that both the district court and the court of appeals
applied in this case. Though the court of appeals’ conclusion that the Note was inadmissible as either a
statement against interest or under the residual
exception to the hearsay rule were both error vel non
(including, because they were contrary to decisions of
other courts of appeals on analogous facts), the failure
to consider the constitutional issue presented by the
exculpatory nature of the Note only compounded the
problem. The failure to factor the Note’s exculpatory
nature in the analytical calculus cannot be squared
with this Court’s right-to-present a defense authorities and compels the grant of certiorari.

15
I. The Court Should Grant The Petition To
Decide The First Question Presented.
Long ago, this Court made it clear in Direct Sales
Co. v. United States, 319 U.S. 703 (1943) that charges
of conspiracy cannot be made out by piling inference
upon inference. The Court said:
Without the knowledge, the intent cannot
exist. United States v. Falcone, 311 U.S. 205,
85 L. Ed. 128, 61 S. Ct. 204, supra. Furthermore, to establish the intent the evidence of
knowledge must be clear, not equivocal. Ibid.
This, because charges of conspiracy are not to
be made out by piling inference upon inference, thus fashioning what, in that case, was
called a dragnet to draw in all substantive
crimes.
Id. at 711 (emphasis added); see also Ingram v. United
States, 360 U.S. 672, 680 (1959). Of course, this rule
has been widely followed, including to reverse many
conspiracy convictions in the courts of appeals. See,
e.g., United States v. Burgos, 703 F.3d 1, 11 (1st Cir.
2012); United States v. Klein, 515 F.2d 751, 753-54 (3d
Cir. 1975); United States v. Pierre, 932 F.2d 377, 394
(5th Cir. 1991); United States v. Swafford, 512 F.3d
833, 843 (6th Cir. 2008); United States v. Bradberry,
517 F.2d 498, 500 (7th Cir. 1975); United States v.
Dunn, 564 F.2d 348, 359 (9th Cir. 1977); United States
v. Dorman, 860 F.3d 675, 682 (D.C. Cir. 2017). Ironically, prior to this case, the Tenth Circuit had been one
of the most faithful adherents to this fundamental
principle. See, e.g., United States v. Christy, 916 F.3d
814, 853 (10th Cir. 2019); United States v. Rufai,
732 F.3d 1175 (10th Cir. 2013); United States v.
Rahseparian, 231 F.3d 1257 (10th Cir. 2000); United
States v. Jones, 44 F.3d 860, 865 (10th Cir. 1995);

16
United States v. Austin, 786 F.2d 986 (10th Cir. 1986).
A factually analogous case that Mr. Hammers relied
upon heavily in his briefing and at oral argument
before the court of appeals is United States v. Ganji,
880 F.3d 760 (5th Cir. 2018). Despite Mr. Hammers’
heavy reliance on these principles and authorities, the
court of appeals did not discuss or apply any of these
authorities in any manner.4 Given the conflict of the
court of appeals’ decision in this case with prior decisions of this Court, of other panels of its own court, and
with other courts of appeals, this Court should grant
this Petition.
A. The Tenth Circuit’s Decision in this
Case Conflicts with Numerous Settled
Principles from other Courts’ of Appeals
Decisions (Including Its Own).
Close examination of several of the above cases
reveals several key principles that should have been
dispositive here, but which the court of appeals did not
consider or apply.
1. The fact that fraudulent funds have some possible relationship to a defendant’s bank account is
not enough to sustain a conspiracy conviction. In
Rahseparian, the defendant Jack was the father of
two sons who were conducting a fraudulent business
located in Shawnee, Oklahoma. 231 F.3d at 1260.
Only the father, Jack, was physically in Shawnee, and
he was the contact person for the mailbox to which
4

Mr. Hammers acknowledges that the court of appeals cited
Rahseparian for the elements of a conspiracy to embezzle federal
program funds (Pet. App. 13a). The court of appeals did not,
however, cite to or apply Rahseparian’s principles regarding
insufficiency of evidence, which was the principal purpose for
which Mr. Hammers relied on it.

17
defrauded persons sent the money the sons had duped
from them under false pretenses. Id. at 1260-61. Jack
was an account owner on all of the bank accounts into
which fraudulently obtained funds were deposited,
and he called one of his sons “every day or every
other day to find out ‘how many checks to expect and
how much they were.’” Id. at 1261. The Tenth Circuit
explained that:
The government points to the following evidence to support the inference made by the
jury that Jack knew Genesis Marketing was
an unlawful enterprise: Jack was the contact
person for the mailbox, which was unrelated
to Jack or his business ventures; Jack conducted all of Genesis Marketing’s banking
through his own personal business accounts,
which resulted in a commingling of funds to
the extent that tracing the flow was difficult
or impossible; Jack had daily conversations
with Ardie regarding the incoming checks;
Jack purchased “lead sheets” for Genesis
Marketing using a cashier’s check rather
than a business check; and Jack made false
exculpatory statements regarding the source
of deposits of Genesis Marketing’s funds.
Id. at 1262-63. Still, the Tenth Circuit concluded that
“[n]one of this evidence, even when considered in a
light most favorable to the government, supports
beyond a reasonable doubt an inference that Jack
knew Genesis Marketing was unlawful.” Id. at 1263.
In Ganji, the defendant Elaine Davis was the owner
and director of a home-health agency that submitted
more than $30,000,000 in fraudulent claims. 880 F.3d
at 765, 774. Even though Ms. Davis had “significant
oversight” over the organization’s financial dealings,

18
the Fifth Circuit found that “[t]he evidence did not
prove that Davis committed actions sufficient to show
an agreement to defraud Medicare beyond a reasonable doubt.” Id. at 776.
2. The fact that a defendant testified at trial and
“the jury could have found his testimony less than
credible” is not enough to sustain a conspiracy conviction. The defendant in Austin testified, as did the
defendant in Rufai and the defendants in Ganji. If
it were enough for the court of appeals to conclude
merely that the jury could find adequate evidence in
disbelieving a testifying defendant, then Austin and
Rufai (as well as Ganji) were clearly decided wrongly.5
Since the decision in this case cannot be harmonized
with Rufai, Ganji, and Austin, this Court should grant
certiorari and resolve the conflict.
3. The fact that the defendant is actually aware of
facts that should lead him to conclude that illegal
5

The circuits are divided on the question of whether the
potential disbelief of a defendant’s testimony is, itself, sufficient
evidence to sustain a conviction. Compare United States v. Eisen,
974 F.2d 246, 259 (2d Cir. 1992) (“[T]he jury is free to draw
negative inferences from an untruthful witness’s testimony as
long as there is affirmative testimony to supplement or corroborate those negative inferences.”); United States v. Martinez, 514
F.2d 334, 341 (9th Cir. 1975) (“Disbelief of a defendant’s own
testimony may provide at least a partial basis for a jury’s
conclusion that the opposite of the testimony is the truth . . . .
But such belief can provide only partial support: there must also
be ‘other objective evidence on the record which buttresses the
fact finder’s drawing of the opposite inference.’”) (quoting United
States v. Chase, 503 F.2d 571, 573 n.4 (9th Cir. 1974)), with
United States v. Eley, 723 F.2d 1522, 1525 (11th Cir. 1984);
United States v. Restrepo-Granda, 575 F.2d 524, 528 (5th Cir.
1978). The Tenth Circuit has previously noted the existence of
this conflict. Stallings v. Tansy, 28 F.3d 1018, 1024 (10th Cir.
1994).

19
activity is occurring is not enough to sustain a conspiracy conviction. This was the core holding in Austin:
“Although Austin candidly testified that by March he
had begun to suspect something illegal was going on,
mere suspicion is not enough.” 786 F.2d at 989;6 see
also Ganji, 880 F.3d at 776 (“It is not enough that the
Government proves that the defendant knew something criminal was afoot.”). In Rufai, the defendant
was made aware of numerous facts from an employee
that should have triggered a duty to inquire further—
a duty which, if fulfilled, would have led to discovery
of the fraud at issue. 732 F.3d at 1193-94.
4. Having advanced educational training—even in
financial-related subject matters—is not enough to sustain a conspiracy conviction. In Rufai, the defendant
held an economics degree, taught commerce and economics courses, and had operated a number of businesses. 732 F.3d at 1180. The defendants in Ganji
both had advanced degrees and/or significant experience in the industry. 880 F.3d at 764 (“Dr. Ganji was
a physician who owned a private practice and had previously worked in nursing homes and with other home
health care agencies.”); id. at 776 (“Davis was an accountant and Christian’s owner, and her duties included signing checks and filling staffing positions.”).
5. Being the leader of an organization in which criminal activity is occurring is not enough to support a conspiracy conviction, even coupled with receipt of information that should trigger additional inquiry. In
Ganji, Ms. Davis was the check signer for the homehealth agency, and hired the employees who commit6

The Authoring Judge of the court of appeals’ decision in this
case denied Mr. Austin’s motion for judgment of acquittal on
these grounds, serving as the trial judge at the time.

20
ted the fraud at issue. 880 F.3d at 776. Yet, the Court
concluded that even if she “should have known” of the
fraud at issue, these facts were not enough. Id.
(emphasis in original). Rahseparian is in accord.
B. The First Question Presented
Important And Recurring.

Is

“In our own time and place, criminal laws have
grown so exuberantly and come to cover so much previously innocent conduct that almost anyone can be
arrested for something.” Nieves v. Bartlett, 139 S. Ct.
1715, 1730 (2019) (Gorsuch, J., concurring in part and
dissenting in part). For that reason, “[i]n a criminal
case . . . [a] ‘knew or should have known’ formulation
runs up against a decades-long presumption that the
government must prove that the defendant knew the
facts that made his conduct illegal.” United States v.
Parigian, 824 F.3d 5, 11 (1st Cir. 2016) (citing Elonis
v. United States, 135 S. Ct. 2001, 2009-10 (2015);
Staples v. United States, 511 U.S. 600, 605-06 (1994)).
And many other courts of appeals have recognized—
likely for this reason—that one cannot negligently
enter into a conspiracy. Ganji, 880 F.3d at 775 (citing
Snow Ingredients Inc v. SnoWizard Inc., 833 F.3d 512,
526 (5th Cir. 2016)). A conspiracy requires that there
be evidence of an actual agreement and specific intent
to further the illegal conduct. United States v. Lalley,
257 F.3d 751, 756 (8th Cir. 2001) (“a showing of negligence, mistake, or carelessness is not sufficient to support a finding of knowledge”); United States v. Fuchs,
467 F.3d 889, 908 (5th Cir. 2006) (“Mere presence
or association alone, however, [is] not sufficient to
prove participation in a conspiracy.”). Yet, the court of
appeals’ decision in this case affirms Mr. Hammers’
conspiracy conviction by referencing the manner in
which things should have operated at GGPS and the

21
local banks, and concluding that the jury could have
inferred Mr. Hammers’ wrongdoing from the fact that
GGPS’s and the bank’s operations deviated from
accepted practices.
The court of appeals’ reasoning expands the reach of
the conspiracy statutes dramatically. Especially given
the realities of modern business operations, if a high
level executive can be convicted of conspiracy because
the failure of an employee to follow procedures in the
course of committing a crime, then the conspiracy statutes cast a wide swath indeed. And this case presents
an ideal vehicle to analyze this issue, because Mr.
Hammers was acquitted of every substantive count.
The Court should expressly hold that executive negligence—even gross negligence—is not enough to support a conspiracy conviction. In so doing, the Court
can clearly provide fair notice of what conduct is, and
is not, within the reach of the federal conspiracy statutes.
C. The Decision Below Is Wrong.
Every statement made by the court of appeals in its
sufficiency-of-the-evidence analysis is either directly
in conflict with another decision of a court of appeals
on which Mr. Hammers relied, directly contradicted by
the record, or both.
1. The court of appeals said that “Defendant is welleducated and trained in school financial administration.” (Pet. App. 14a). Rufai and Ganji reject this as
sufficient. See Part I.A.4, supra.
2. The court of appeals also observed that “[a]long
with being the superintendent, Defendant was the
purchasing agent for [GGPS], responsible for identifying the vendors who would provide goods and services
to the school. In that capacity, Defendant was tasked

22
with approving the school’s purchases, reporting to the
school board regarding those purchases, and answering any questions raised thereby. In spite of these
responsibilities, [GGPS] prepared hundreds of fraudulent purchase orders reflecting hundreds of thousands
of dollars’ worth of goods and services that were never
provided to the school.” (Pet. App. 14a). Ganji and
Rahseparian find analogous facts insufficient. Ganji,
880 F.3d at 776 (where defendant Davis was the check
signer and hired the employees who committed the
fraud at issue); Rahseparian, 231 F.3d at 1263-64
(evidence was insufficient even though the defendant
was the contact person for the mailbox through which
the fraudulent activity occurred, was in daily contact
with the persons perpetrating the fraud, did all banking for the business, and purchased items used in the
fraudulent scheme).
3. The court of appeals continued “[a]lthough
[GGPS’s] auditors did not immediately realize the
school was producing fraudulent purchase orders,
the auditors did identify specific problems with
[GGPS’s] purchasing process starting in 2011. The
auditors informed Defendant of those deficiencies, and
in fact, Defendant was listed as the contact person
on [GGPS’s] corrective action plan. Despite Defendant’s training in school financial administration and
knowledge of the deficiencies in the school’s purchasing process, the problems identified in 2011 persisted
through the 2014 fiscal year.” (Pet. App. 14a). But
Ganji, Rahseparian, and Austin specifically find this
insufficient. See Part I.A.3, supra. Further, none of
the audits sent to Mr. Hammers while he was still
employed stated that fraud was taking place. (See
App. at 1434-1545).

23
4. The court of appeals further stated that “In that
time, [GGPS] produced hundreds of fraudulent checks
based on the fraudulent purchase orders—purchase
orders that were allegedly, and should have been,
approved by Defendant. Despite being written to primarily out-of-town vendors, the fraudulent checks
were cashed at local banks, and many of the checks
bore Defendant’s signature as the last endorser.” (Pet.
App. 14a). Rufai and Ganji, however, are directly to
the contrary on far more egregious facts. See Part
I.A.1, supra.
5. The court of appeals next observed, “[w]hile
Defendant contests the endorsements reflect his
genuine signature, the bank vice president testified,
per bank policy, the checks should not have been
cashed unless Defendant, as the last endorser, was
present. Additionally, multiple lay witnesses testified
the signature appeared to be Defendant’s based upon
their familiarity with Defendant’s signature generally.” (Pet. App. 14a – 15a). The Government handwriting expert did not simply conclude that the writing
was inconclusive. He, in fact, noted substantial “gross
pictorial dissimilarities.” (App. at 570-73). He further
explained that he observed the “presence of unexplained characteristics” in the name Buck Hammers
as written on the fraudulent checks. (App. at 576; see
also App. at 1663-1666). Further, no witnesses in fact
testified as the court of appeals claimed. (App. at 319,
325, 381, 407, 525, 600). Instead, these witnesses
made clear that they were merely explaining that the
writing appeared to say “Buck Hammers,” not that
they were actually asserting it to be his genuine signa-

24
ture. And any forgery should at least bear some
similarity to the actual signature.7
6. The court of appeals also noted that “[f]inally,
Defendant’s account number is written on at least one
fraudulent check for $2,900, and a bank teller testified
Defendant cashed at least ‘some checks’ with them.”
(Pet. App. 15a). Mr. Hammers was charged with fraud
based upon this transaction and he was acquitted.
(App. at 1676 (Count 9), App. at 1780). Further, there
was no evidence that Mr. Hammers wrote that number, despite handwriting expert testimony offered by
the Government. Also, Mr. Hammers’ bank account
statements contained no mention of this check. (App.
at 1604).
7. The court of appeals finally observed that
“[w]hile Defendant testified in his own defense and
urged Ms. Keeling acted alone, the jury could have
found his testimony less than credible when he, for
example, disclaimed knowledge of $28,000 worth of
fraudulent checks approved at the same school board
meeting where he recommended laying off two teachers and combining classes due to negative balances.
A reasonable jury could have rejected Defendant’s
explanation that he trusted Ms. Keeling completely
7

It also bears noting that the bank vice president was physically located at the Antlers branch of First United Bank, not the
Hugo branch. (App. at 407, 424-25). There was no evidence that
Mr. Hammers (or, for that matter, Keeling) used the Antlers
branch of First United Bank. Instead, only the Hugo branch was
used. (See Government’s Exhibit 122 (identifying Hugo address);
App. at 521-22; App. at 555). Also, there was no evidence
presented that the $2,900.00 check to Danny Carter was, in fact,
cashed at the Antlers branch as opposed to the Hugo branch. (See
App. at 404). The prosecutor injected the concept of Antlers, and
the Government’s exhibit referred to contains no indication of an
Antlers cashing. (See id.; Government’s Exhibit 100).

25
and overlooked the hundreds of thousands of dollars
spent on non-existent school improvements.” (Pet.
App. 15a). The same exact thing could have been said
in Austin, Rufai, and Ganji, and the courts of appeals
are in any event divided on whether mere disbelief of
a defendant’s testimony is sufficient evidence to
sustain a conviction, especially a conspiracy conviction. See Part I.A.2 & n.4, supra.
Since the decision of the court of appeals is directly
contrary to the decisions explained above and failed to
follow principles that this Court’s decisions mandate
in a conspiracy case, certiorari should be granted in
this case to vacate the court of appeals’ decision.
II. The Court Should Grant The Petition To
Decide The Second Question Presented.
This Court has long recognized that exculpatory
evidence in a criminal case is unique. The Note was
the quintessence of exculpatory evidence—i.e., it
stated “I Pam Keeling take full responsibility for
everything at Grant School. No vendor nor Mr.
Hammers had anything to do with what happened.
I am truly sorry and pray for forgiveness.” The core
holding of Chambers v. Mississippi, 410 U.S. 284
(1973) is that, when dealing with exculpatory evidence
like the Note, a court cannot merely apply the rules
of evidence without consideration of the exculpatory
nature of the evidence. But the court of appeals in this
case admitted that it was doing just that. (Pet. App.
12a (“Because we find the district court did not abuse
its discretion in excluding the note, we need not
address whether the excluded evidence was of such an
exculpatory nature that its exclusion affected the
outcome of the trial.”)). This analysis fundamentally
conflicts with Chambers and its progeny, and certio-

26
rari should be granted to correct the irreconcilable
conflict.
A. The Tenth Circuit’s Decision Failed to
Apply Settled Law from this Court’s
Decisions Regarding the Exclusion of
Exculpatory Evidence.
The court of appeals did not consider the constitutionality of the Note’s exclusion or its uniquely
exculpatory nature at any point. This analytical failure cannot be squared with Chambers v. Mississippi,
410 U.S. 284 (1973) and its progeny. In Chambers,
this Court concluded that it violated a defendant’s
due-process rights to exclude a declarant’s confession
to another person even though it was clearly inadmissible under the applicable hearsay rule. Id. at 302.
In so holding, this Court explained that “where constitutional rights directly affecting the ascertainment
of guilt are implicated, the hearsay rule may not be
applied mechanistically to defeat the ends of justice.”
Id.
This Court and other courts have followed that
analysis in numerous other cases. See, e.g., Holmes
v. South Carolina, 547 U.S. 319, 326 (2006) (“[T]he
Constitution . . . prohibits the exclusion of defense
evidence under rules that serve no legitimate purpose
or that are disproportionate to the ends that they are
asserted to promote . . . .”); Kubsch v. Neal, 838 F.3d
845, 862 (7th Cir. 2016) (“[D]ue process demands that
evidence rules must be overridden in a narrow set of
circumstances.” (emphasis added)); United States v.
Hurn, 368 F.3d 1359, 1363 n.2 (11th Cir. 2004) (“[T]he
fact that a particular rule of evidence requires the
exclusion of certain evidence is not dispositive, as
particular applications of a generally valid rule may
unconstitutionally deny a defendant his rights under

27
the Compulsory Process or Due Process Clauses.”);
Lunbery v. Hornbeak, 605 F.3d 754, 761 (9th Cir. 2010)
(finding a Chambers violation where “[t]he state
court[s] excluded as hearsay Rory Keim’s testimony
that Henry Garza, dead at the time of Kristi’s trial,
had admitted that his partners had murdered Charlie
Bateson in error.”); Harris v. Thompson, 698 F.3d 609,
635 (7th Cir. 2012) (“Chambers shows that ‘if the
defendant tenders vital evidence the judge cannot
refuse to admit it without giving a better reason [than]
that it is hearsay.’” (quoting Rivera v. Director, Dep’t
of Corrections, 915 F.2d 280, 281–82 (7th Cir. 1990));
Taylor v. Curry, 708 F.2d 886, 891 (2d Cir. 1983)
(citing Chambers and explaining that “[i]t necessarily
follows that if the omitted evidence creates a reasonable doubt that did not otherwise exist, constitutional
error has been committed.”); United States v.
Veltmann, 6 F.3d 1483, 1493 (11th Cir. 1993) (despite
the fact that the evidence was perhaps inadmissible as
cumulative, “its import was such that exclusion violated defendants’ right to put on a defense.”).
The court of appeals avoided the constitutional issue
entirely. It did so by a straightforward application of
the Rules of Evidence. (Pet. App. 12a). But the
decisions cited above make clear that, when exculpatory evidence is at issue in a criminal case, the
analysis cannot begin and end merely with the evidence rules. Since that is exactly what the court of
appeals admittedly did in this case, the grant of this
Petition is necessary to resolve the conflict.
B. The Decision Below Is Wrong.
The court of appeals’ conclusion that the Note was
inadmissible under the statement-against-interest

28
exception to the hearsay rule8 or the residual exception
were both erroneous.9 But they were especially erro8

In short, other courts of appeals have rightly concluded that
statements close in temporal proximity to a suicide and regarding
a person with whom the declarant had a close relationship can be
properly admitted as statements against penal interest under
Fed. R. Evid. 804(b)(3). See, e.g., United States v. Moore, 810 F.3d
932, 935, 938-39 (4th Cir. 2016) (concluding that a trial witness
could testify to statements made by a co-conspirator–cellmate
shortly before his suicide because they were statements against
interest); United States v. Paguio, 114 F.3d 928, 932-34 (9th Cir.
1997) (concluding that a father’s statement that his son “had
nothing to do with it” was admissible as a statement against
interest, irrespective of the fact that the father may have made
the statement out of “[a] motive of love” for his son and that “it
was up to the jury to decide whether the father’s statement
against penal interest was motivated by truthfulness or a noble
motive to lie.”). Further, although Keeling wrote the notes in
contemplation of suicide, unsuccessful suicides or last-minute
changes of heart are not rare. Had she failed in her attempt at
suicide or changed her mind, the statements undoubtedly would
have subjected her to criminal liability. At the moment of the
Note’s writing, Keeling was alive, and at that very moment the
statements exposed her to criminal liability. Moreover, that she
believed the statements were true, irrespective of whether they
subjected her to criminal liability, is supported by the fact that
she made the statements so close to the time of her death. Cf.
Idaho v. Wright, 497 U.S. 805, 819 (1990) (in discussing the
dying-declaration exception, recognizing that “the sense of
impending death is presumed to remove all temptation to falsehood, and to enforce as strict an adherence to the truth as would
the obligation of oath.”). These decisions, which directly reject all
of the court of appeals’ reasons for finding the Note was not a
statement against interest, also justify the grant of certiorari.
9

In its Opinion, the court of appeals raised an issue never
discussed by any party or relied upon by the District Court—
namely, whether the statement “No vendor nor Mr. Hammers
had anything to do with what happened” was within the scope of
FED. R. EVID. 804(b)(3) and decided it against Mr. Hammers
without an opportunity for him to be heard on that score. In

29
neous since the exculpatory nature of the Note never
factored into either the court of appeals’ or the district
court’s analysis.
As to the residual exception, the court of appeals
found Mr. Hammers’ arguments to be “persuasive.”
(Pet. App. 11a). And for good reason: The Sixth
Circuit court of appeals has approved of the admission
of a suicide note at trial under the residual exception
to the hearsay rule. Miller v. Stovall, 742 F.3d 642
(6th Cir. 2014). The suicide note was written by the
defendant’s “lover” and offered against the defendant
at trial (thus, its admissibility did not implicate the
constitutional right to present a defense as here).
Recognizing that although the note did not qualify as
a dying declaration, “it was reasonable for the court of
appeals to find that [the] statements were reliable on
similar grounds.” Id. at 650. In so noting, the Sixth
Circuit quoted this Court: “the basis for the ‘dying
declaration’ exception to the hearsay rule is that ‘the
sense of impending death is presumed to remove all
temptation to falsehood, and to enforce as strict an
adherence to the truth as would the obligation of
oath.’” Id. at 650 (quoting Idaho v. Wright, 497 U.S.
support, the court of appeals relied upon United States v. Smalls,
605 F.3d 765 (10th Cir. 2010) and Williamson v. United States,
512 U.S. 594 (1994). Neither involved a suicide note, and both
involved the Government offering statements against the accused.
Further, Williamson indicates that when a statement “forfeit[s]”
an available defense, it is against the declarant’s interest. 512
U.S. at 604. Here, the statement exculpating Mr. Hammers and
vendors forfeited available defenses that Ms. Keeling could have
had both civilly and criminally. In addition, as Justice Scalia
noted, “a declarant’s statement is not magically transformed from
a statement against penal interest into one that is inadmissible
merely because the declarant names another person or implicates
a possible codefendant.” Id. at 604 (Scalia, J., concurring).

30
805, 819 (1990)). Thus, it was properly admitted
under the “catchall” or residual exception to the
hearsay rule. In holding it was not unreasonable to
admit the note, the court recognized the note’s indicia
of reliability: “proximity [of the note] to his suicide
may fairly indicate reliability[,]” the note was written
when the lover knew his death was imminent, the
letters were written voluntarily and unprompted, the
letter was addressed to his parents, the tone of
the letter was contrite, and the content of the letter
was confessional and self-incriminating. Id. at 651.
Further, a proper Fed. R. Evid. 807 analysis requires
a district court to consider the availability of other
admissible evidence through reasonable efforts, which
depend on matters such as the evidence’s importance
and the proponent’s ability to provide it. See United
States v. Shaw, 824 F.2d 601, 610 (8th Cir. 1987);
Pueblo of Jemez v. United States, 366 F. Supp. 3d 1234,
1269 (D.N.M. 2018) (“[E]xceptional circumstances
occur when hearsay evidence is relevant and reliable,
and no other evidence, or little other evidence, is
available on the same point.”).
10

The court of appeals essentially rejected Stovall,
even though it could only muster “questions” about the
indicia of reliability and “potential” reasons why the
Note would not be reliable.11 (Pet. App. 9a – 11a). Con10

Indeed, the proper way to approach a FED. R. EVID. 807
analysis is to compare circumstances of statement at issue to “the
closest hearsay exception” United States v. Banks, 514 F.3d 769,
777-78 (8th Cir. 2008). As this Court has explained in analyzing
the related dying-declaration exception, “the sense of impending
death is presumed to remove all temptation to falsehood, and to
enforce as strict an adherence to the truth as would the obligation
of oath.” Idaho v. Wright, 497 U.S. 805, 819 (1990).
11

The court of appeals also noted the unremarkable position
that the residual exception should not be applied “expansive[ly].”

31
sidered properly through the analytical lens required
by Chambers, reasonably close calls (on either the
statement-against-interest or residual exception to
the hearsay rule) should have gone in favor of Mr.
Hammers, given the entirely exculpatory nature of
the Note. The court of appeals acknowledged the
existence of such a question at least on the residual
clause, but declined to resolve it in Mr. Hammers’
favor by avoiding the Note’s exculpatory nature.
At bottom, the court of appeals’ reasoning conflicted
with Chambers and its progeny, as it failed to consider
the constitutionality (which necessarily requires consideration of the exculpatory nature of the evidence)
of the exclusionary ruling. As neither the court of
appeals nor the district court ever engaged in this
analysis, their reasoning cannot be squared with
Chambers and therefore certiorari should be granted
to vacate their conclusions in that regard.

(Pet. App. 10a). With that general statement, Mr. Hammers
has no disagreement. But Fed. R. Evid. 807 is a provision in the
Federal Rules; it must have some meaning; and it must apply
in some circumstances. Indeed, “[t]he purpose of Rule 807 is to
make sure that reliable, material hearsay evidence is admitted,
regardless of whether it fits neatly into one of the exceptions
enumerated in the Rules of Evidence.” United States v. Moore,
824 F.3d 620, 624 (7th Cir. 2016).

32
CONCLUSION
For the foregoing reasons, the Petition for a Writ of
Certiorari should be granted.
Respectfully submitted,
RYAN A. RAY
Counsel of Record
NORMAN WOHLGEMUTH
CHANDLER JETER
BARNETT & RAY, P.C.
2900 Mid-Continent Tower
401 S. Boston Ave.
Tulsa, Oklahoma 74103
(918) 583-7571
rar@nwcjlaw.com
Counsel for Petitioner
April 9, 2020

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
————
No. 18-7051
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
BUCK LEON HAMMERS,
Defendant-Appellant.
————
Appeal from the United States District Court
for the Eastern District of Oklahoma
(D.C. No. 6:17-CR-00033-RAW-1)
————
November 12, 2019, Filed
————
Counsel: Ryan A. Ray, Norman Wohlgemuth Chandler
Jeter Barnett & Ray, Tulsa, Oklahoma, for DefendantAppellant.
Linda A. Epperley, Assistant United States Attorney
(Brian J. Kuester, United States Attorney, and Robert
A. Wallace, Assistant United States Attorney, with her
on the brief), Muskogee, Oklahoma, for Plaintiff-Appellee.
Judges: Before TYMKOVICH, Chief Judge, BALDOCK,
and EID, Circuit Judges.
Opinion by: BALDOCK

2a
OPINION
BALDOCK, Circuit Judge.
Defendant-Appellant Buck Leon Hammers used to
be the Superintendent of the Grant-Goodland Public
School District in Grant, Oklahoma. That is, until
he was charged with conspiring with his secretary to
commit bank fraud and embezzle federal program
funds. Prior to trial, the Government moved to exclude
a suicide note written by Defendant’s secretary and coconspirator, Pamela Keeling. In that note, Ms. Keeling
took full responsibility for the fraud and exculpated
Defendant of any wrongdoing. The district court granted
the Government’s motion and prohibited Defendant
from introducing the note at trial. The jury subsequently convicted Defendant of conspiracy to commit
bank fraud in violation of 18 U.S.C. § 1349 and conspiracy to embezzle federal program funds in violation
of 18 U.S.C. § 371. The jury acquitted Defendant on
the seven substantive counts of embezzlement and
bank fraud.
On appeal, Defendant asserts: (1) the district court
erred in excluding Ms. Keeling’s suicide note; (2) the
Government did not present sufficient evidence to
obtain a conviction; (3) the Government committed
prosecutorial misconduct; and (4) the district court
committed procedural error at sentencing. Exercising
jurisdiction under 28 U.S.C. § 1291, we affirm.
I.
In August 2001, Defendant became the Superintendent of Grant Schools. Eight years later, Grant
Schools consolidated with the Goodland School
District, creating the Grant-Goodland Public School
District (“Grant-Goodland”). Beginning in 2011, the
auditing firm for Grant-Goodland noticed deficiencies

3a
in Grant-Goodland’s invoicing process. Although the
firm noted the deficiencies in Grant-Goodland’s audit
and made recommendations for improvement, the
deficiencies persisted through subsequent audits in
2012, 2013, and 2014.
By 2014, the continued deficiencies raised more
serious concerns as auditors began to suspect fraud
at Grant-Goodland. Initially, the auditors were concerned with fourteen large purchase orders totaling
$386,211. The auditors were troubled by the fact
that the purchase orders did not have “actual original
invoices with letterhead and normal business information.” In light of their concerns, the auditors
examined all checks issued to the vendors identified in
the fourteen large transactions. The auditors determined the checks to these vendors were written as a
group together, each month, on the same date. Each
of the checks was endorsed by both the vendor, and
then, a school official. The checks were cashed within
minutes of each other, at the same bank, on the same
day they were issued. Because many of these vendors
were located out of town, the auditors found it unlikely
the checks could have been issued, mailed, and cashed
in such a short amount of time. Having validated their
suspicions, the auditors notified the United States
Department of Education Office of Inspector General
Investigation Services (“OIG”), which initiated the
federal investigation in this case.
On January 28, 2016, agents from the FBI and the
OIG executed a search warrant at Grant-Goodland’s
administrative office and seized 36 boxes of documents
as well as electronic files. Sometime thereafter, Ms.
Keeling informed Jimmie Sue Miller—who was her
aunt and the school board treasurer—she intended to
tell authorities she “did it.” On February 1, 2016, the

4a
Grant-Goodland school board suspended Defendant
and Ms. Keeling for their alleged roles in the scheme
to defraud the district by falsifying invoices and check
endorsements. Ms. Keeling committed suicide the next
day.
Before taking her own life, Ms. Keeling left four
suicide notes laying on a bible—three to her family
and one “to whom it may concern” at Grant-Goodland.
The letter to whom it may concern at Grant-Goodland
read as follows: “I Pam Keeling take full responsibility
for everything at Grant School. No vendor nor Mr.
Hammers had anything to do with what happened. I
am truly sorry and pray for forgiveness.”
II.
Prior to trial, the Government filed a motion in
limine to exclude the suicide note from evidence, arguing
the note is inadmissible hearsay. In response, Defendant
argued the note qualifies as a statement against
interest and is also admissible under the residual
exception to the hearsay rule. See Fed. R. Evid.
804(b)(3); Fed. R. Evid. 807. At the pretrial hearing,
the district court granted the Government’s motion in
limine but left its decision open to reconsideration
depending on the evidence presented at trial. At trial,
defense counsel revisited the issue and the district
court reiterated its decision to exclude the note.
In making its decision, the district court reasoned
the suicide note was not a statement against interest
because “penal interest is of no interest—is of no
moment to a dead man.” The court further held the
note was not “corroborated by circumstances clearly
indicating its trustworthiness.” Having determined
the note was not corroborated by circumstances clearly
indicating its trustworthiness, the district court also

5a
held the note could not be admitted under the residual
exception.
Despite its decision to exclude the note, the district
court permitted defense counsel to question Ms. Keeling’s
aunt, Jimmie Sue Miller, regarding Ms. Keeling’s
confession that she “did it.” The district court admitted
the confession pursuant to the statement against
interest exception because there were corroborating
circumstances with respect to Ms. Keeling’s statement to her aunt, in contrast to the suicide letter.
Specifically, the district court found Ms. Keeling’s
statement that she “did it” was corroborated by the
Government’s evidence, which was “very much based
upon Ms. Keeling’s involvement.” Although defense
counsel originally intended to call Ms. Miller to testify
regarding Ms. Keeling’s confession, counsel ultimately
determined calling Ms. Miller would not be in Defendant’s best interest.
After the Government rested its case, Defendant
moved for a judgment of acquittal on all counts, which
the district court denied. Subsequently, Defendant
testified in his own defense. At the close of all evidence, Defendant renewed his motion. The district
court denied the motion on the same grounds finding,
in the light most favorable to the Government, a rational
trier of fact could find every element of the crimes
charged beyond a reasonable doubt. After nearly seven
hours of deliberation, the jury returned a guilty verdict
on counts one and two, charging conspiracy to commit
bank fraud and conspiracy to embezzle federal program funds. The jury acquitted Defendant on counts
three through nine, alleging bank fraud and embezzlement.
Following the trial, the United States Probation
Office prepared a presentence report (“PSR”). In the

6a
final PSR, the United States Probation Office recommended the court apply a two-level obstruction of
justice enhancement based on Defendant’s alleged
perjury at trial. At sentencing, the district court
found by a preponderance of the evidence Defendant
committed perjury and applied the enhancement over
Defendant’s objection.
The district court also considered Defendant’s motion
for a downward variance and the Government’s motion
for an upward departure at sentencing. After consideration, the court granted the Government’s motion
in part and imposed a two-level upward departure.
Based on that departure, the district court calculated
an adjusted guideline range of 87 to 108 months.
Ultimately, the district court imposed a sentence at
the high end of the guideline range, sentencing
Defendant to 108 months on both counts 1 and 2 to run
concurrently. The district court also imposed a threeyear term of supervised release on each count to run
concurrently.
III.
Defendant raises four issues on appeal. First, he
argues the district court erred in excluding Ms. Keeling’s
suicide note. Next, he maintains the Government did
not present sufficient evidence to obtain a conviction.
Third, he alleges the Government committed prosecutorial misconduct. Finally, he contends the district
court committed procedural error at sentencing. We
address each issue in turn.
A.
First, Defendant argues the district court erred in
excluding Ms. Keeling’s suicide note at trial. Defendant
further argues the exclusion of the note violated his
constitutional right to present a defense. We review

7a
the district court’s evidentiary rulings for an abuse of
discretion. United States v. Dowlin, 408 F.3d 647, 659
(10th Cir. 2005). When a defendant alleges the district
court’s evidentiary ruling deprived him of his constitutional right to present a defense, we review the
constitutionality of the ruling de novo. Id.
1.
Turning first to whether the district court abused its
discretion in excluding the suicide note, Defendant
argues the district court should have admitted the
suicide note as a statement against interest pursuant
to Federal Rule of Evidence 804(b)(3) or, in the
alternative, under the residual exception pursuant to
Federal Rule of Evidence 807.
Under Rule 804(b)(3), a statement against the
declarant’s interest is not excluded as hearsay if it is
sufficiently reliable. Rule 804(b)(3) covers only those
statements that are “individually self-inculpatory.”
United States v. Smalls, 605 F.3d 765, 781 (10th Cir.
2010) (citing Williamson v. United States, 512 U.S.
594, 599, 114 S. Ct. 2431, 129 L. Ed. 2d 476 (1994)).
We have rejected the notion “that an entire narrative,
including non-self-inculpatory parts (but excluding
the clearly self-serving parts . . .) may be admissible if
it is in the aggregate self-inculpatory.” Smalls, 605
F.3d at 781 (citing Williamson, 512 U.S. at 601).
In this case, only the portions of the suicide note
specifically inculpating Ms. Keeling are eligible for
analysis under 804(b)(3). The statement exculpating
Defendant—no vendor nor Mr. Hammers had anything
to do with what happened—is not a statement against
interest because it is not self-inculpatory. Therefore,
the Rule 804(b)(3) analysis applies only to the
statement: “I Pam Keeling take full responsibility for

8a
everything at Grant School . . . I am truly sorry and
pray for forgiveness.”
Undertaking such analysis here, Rule 804(b)(3)
requires three things: (1) the declarant is unavailable;
(2) a reasonable person in the declarant’s position
would not have made the statement unless she believed
it to be true because, when made, it exposed the
declarant to criminal liability; and (3) the statement is
supported by “corroborating circumstances that clearly
indicate its trustworthiness.” Fed. R. Evid. 804(b)(3).
There is no question Ms. Keeling was unavailable because
she was deceased at the time of trial. Therefore, at
issue is: (1) whether the statement exposed Ms.
Keeling to criminal liability such that she would not
have made the statement unless she believed it to be
true; and (2) whether the statement is supported by
corroborating circumstances that clearly indicate its
trustworthiness.
To determine whether a reasonable person in the
declarant’s position would not have made the statement unless she believed it to be true, courts consider
“the statement in context and the circumstances under
which it was made.” United States v. Lozado, 776 F.3d
1119, 1125 (10th Cir. 2015). If evidence of the declarant’s state of mind is available, and the declarant
subjectively believed the statement would not expose
her to criminal liability, it is not a statement against
interest. Id. at 1128.
The district court found the statement was not
against Ms. Keeling’s penal interest because “penal
interest . . . [is] of no moment to a dead man.” See
United States v. Lemonakis, 485 F.2d 941, 956 n.24,
158 U.S. App. D.C. 162 (D.C. Cir. 1973). We conclude
the district court did not abuse its discretion in so
holding. Ms. Keeling appears to have written the

9a
note in anticipation of her imminent death. While
Defendant stresses the rule requires the statement be
against the declarant’s penal interest when it is made,
the record indicates Ms. Keeling had no intention of
sticking around to face criminal prosecution. For
example, the other notes found with the inculpatory
note were good-byes to her family. Additionally, the
letters were found in Ms. Keeling’s motorhome—the
same place she committed suicide. Therefore, at the
time she wrote the note, one cannot seriously argue
Ms. Keeling subjectively believed the statement would
expose her to criminal liability. For that reason, the
district court did not abuse its discretion in finding Ms.
Keeling’s suicide note was not against her penal
interest. See Lozado, 776 F.3d at 1128.
Even assuming Ms. Keeling’s inculpatory statement
was sufficiently against her penal interest to meet the
requirements of Rule 804(b)(3), we cannot find the
district court abused its discretion in finding the
statement was not sufficiently corroborated. Although
this Court has not “squarely addressed how a statement must be corroborated,” we have held “the declarant’s
credibility and the circumstances of the statement
bearing on its truthfulness can both be considerations.” Lozado, 776 F.3d at 1132. Additionally, a “close
relationship between the declarant and the defendant
can damage the trustworthiness of a statement.” Id. at
1133.
Here, the district court questioned whether Ms.
Keeling was in a rational state of mind shortly before
committing suicide.1 The district court also noted Ms.
1

As the district court made clear, the concerns regarding Ms.
Keeling’s rationality in this case do not amount to a per se rule
that suicide notes are always irrational.

10a
Keeling had been dishonest and untrustworthy in
committing the charged fraud, and therefore, her
believability is “subject to question.” Finally, the
district court raised concerns that Ms. Keeling was
trying to “re-write history . . . perhaps wanting to take
guilt on [herself] to clear someone that [she] may have
some close relationship with.”2 Based on this record,
we cannot find the district court abused its discretion
in finding Ms. Keeling’s statement was not sufficiently
corroborated.
Even if Ms. Keeling’s statement was not admissible
under 804(b)(3), Defendant urges it should have been
admitted under the residual exception contained in
Federal Rule of Evidence 807. The residual exception
should only be used “in extraordinary circumstances
where the court is satisfied that the evidence offers
guarantees of trustworthiness and is material, probative and necessary in the interest of justice.” United
States v. Dalton, 918 F.3d 1117, 1133 (10th Cir. 2019)
(citing United States v. Tome, 61 F.3d 1446, 1452 (10th
Cir. 1995)). Courts must use caution in applying the
residual exception because “an expansive interpretation of the residual exception would threaten to swallow
the entirety of the hearsay rule.” Tome, 61 F.3d at
1452.
In this case, the district court decided to exclude the
suicide note under the residual exception because the
note did not offer guarantees of trustworthiness. We
do not find the district court abused its discretion in
2

This factual finding is supported by the following testimony
at trial: “[Defendant and Ms. Keeling] had what I observed to be
a relationship that was personal,” “they were comfortable around
each other . . . they told each other everything and were . . .
friends,” “they had known each other forever,” and “[Ms. Keeling]
would have done anything for him.”

11a
so holding. As already discussed, Ms. Keeling and
Defendant had a close relationship, which potentially
motivated Ms. Keeling to exculpate Defendant before
taking her own life. Moreover, Ms. Keeling’s prior
statements and actions with respect to the charged
fraud cast doubt on her honesty and trustworthiness.3
Nevertheless, Defendant argues a note, voluntarily
written, in close proximity to one’s death has an
“indicia of reliability” because “the sense of impending
death is presumed to remove all temptation to falsehood, and to enforce as strict an adherence to the truth
as would the obligation of oath.” See Miller v. Stovall,
742 F.3d 642, 650 (6th Cir. 2014) (citing Idaho v.
Wright, 497 U.S. 805, 820, 110 S. Ct. 3139, 111 L. Ed.
2d 638 (1990)). While Defendant’s reasoning may be
persuasive, it is not dispositive. Although reasonable
minds may differ, the district court’s factual findings
were supported by the record and its legal conclusions
were not contrary to the established law. Therefore,
we find the district court did not abuse its discretion
in declining to admit the suicide note under the
residual exception.
2.
Next, we turn to Defendant’s second argument—
that is, that the exclusion of the note violated his right
to present a defense. While a defendant has a Fifth
and Sixth Amendment right to present a defense, that
right is not absolute. Dowlin, 408 F.3d at 659. “The
3

We note the district court found the Government’s evidence
corroborated Ms. Keeling’s statement to her aunt but did not
corroborate the suicide note. Despite this inconsistency, the
unique circumstances surrounding the suicide note support our
conclusion that there was no abuse of discretion in finding lack of
corroboration.

12a
right ‘may, in appropriate cases, bow to accommodate
other legitimate interests in the criminal trial process.’” Rock v. Arkansas, 483 U.S. 44, 55, 107 S. Ct.
2704, 97 L. Ed. 2d 37 (1987) (citing Chambers v.
Mississippi, 410 U.S. 284, 295, 93 S. Ct. 1038, 35 L.
Ed. 2d 297 (1973)). For example, “[t]he accused does
not have an unfettered right to offer testimony that is
incompetent, privileged, or otherwise inadmissible
under standard rules of evidence.” Taylor v. Illinois,
484 U.S. 400, 410, 108 S. Ct. 646, 98 L. Ed. 2d 798
(1988) (emphasis added).
To demonstrate his right to present a defense was
violated, Defendant must show: (1) the district court
abused its discretion in excluding the evidence at
issue; and (2) the excluded evidence was “of such an
exculpatory nature that its exclusion affected the
trial’s outcome.” United States v. Tapaha, 891 F.3d
900, 905 (10th Cir. 2018) (citing Dowlin, 408 F.3d at
659). Because we find the district court did not abuse
its discretion in excluding the note, we need not
address whether the excluded evidence was of such an
exculpatory nature that its exclusion affected the
outcome of the trial. In either case, the district court
did not violate Defendant’s right to present a defense.
B.
Next, Defendant argues the Government presented
insufficient evidence to convict him of conspiracy to
commit bank fraud in violation of 18 U.S.C. § 1349
and conspiracy to embezzle federal program funds in
violation of 18 U.S.C. § 371. We review the sufficiency
of the evidence de novo to determine whether a
rational jury could find the defendant guilty beyond a
reasonable doubt. United States v. Marquez, 898 F.3d
1036, 1040 (10th Cir. 2018). We consider all the evidence, along with reasonable inferences taken therefrom,

13a
in the light most favorable to the government. United
States v. Winder, 557 F.3d 1129, 1137 (10th Cir. 2009).
On appeal, we do not “assess the credibility of witnesses or weigh conflicting evidence, as these tasks are
exclusively for the jury.” Id. (citing United States v.
Bowen, 527 F.3d 1065, 1076 (10th Cir. 2008)). Rather,
we “merely determine whether a rational trier of fact
could have found ‘the essential elements of the crime
beyond a reasonable doubt.’” Winder, 557 F.3d at 1137
(citing Bowen, 527 F.3d at 1076).
To prove conspiracy to embezzle federal program
funds under 18 U.S.C. § 371, the Government must
show: (1) Defendant’s agreement with another person
to violate the law; (2) his knowledge of the essential
objective of the conspiracy; (3) his knowing and voluntary involvement; and (4) interdependence among
co-conspirators. United States v. Rahseparian, 231
F.3d 1257, 1262 (10th Cir. 2000). To prove conspiracy
to commit bank fraud under 18 U.S.C. § 1349, the
Government must show: (1) Defendant agreed with at
least one other person to commit bank fraud; (2) one of
the conspirators committed an overt act in furtherance
of the conspiracy; (3) Defendant knew the essential
objective of the conspiracy; (4) Defendant knowingly
and voluntarily participated in the conspiracy; and
(5) there was interdependence among co-conspirators.
See 18 U.S.C. § 1349; 18 U.S.C. § 1344; 18 U.S.C. § 371.
In either case, Defendant argues the Government
failed to prove he specifically agreed to defraud or
embezzle, or that he knowingly and voluntarily
participated in the illegal activity.
Here, resisting Defendant’s suggestion that we
weigh conflicting testimony or evaluate the credibility
of the witnesses, we conclude the Government presented sufficient evidence to support a guilty verdict

14a
on both conspiracy counts. This evidence is as follows.
Defendant is well-educated and trained in school
financial administration. Along with being the superintendent, Defendant was the purchasing agent for
Grant-Goodland, responsible for identifying the vendors
who would provide goods and services to the school. In
that capacity, Defendant was tasked with approving
the school’s purchases, reporting to the school board
regarding those purchases, and answering any questions raised thereby. In spite of these responsibilities,
Grant-Goodland prepared hundreds of fraudulent
purchase orders reflecting hundreds of thousands of
dollars’ worth of goods and services that were never
provided to the school.
Although Grant-Goodland’s auditors did not immediately realize the school was producing fraudulent
purchase orders, the auditors did identify specific
problems with Grant-Goodland’s purchasing process
starting in 2011. The auditors informed Defendant of
those deficiencies, and in fact, Defendant was listed
as the contact person on Grant-Goodland’s corrective
action plan. Despite Defendant’s training in school
financial administration and knowledge of the deficiencies in the school’s purchasing process, the problems
identified in 2011 persisted through the 2014 fiscal
year.
In that time, Grant-Goodland produced hundreds of
fraudulent checks based on the fraudulent purchase
orders—purchase orders that were allegedly, and
should have been, approved by Defendant. Despite
being written to primarily out-of-town vendors, the
fraudulent checks were cashed at local banks, and
many of the checks bore Defendant’s signature as the
last endorser. While Defendant contests the endorsements reflect his genuine signature, the bank vice

15a
president testified, per bank policy, the checks should
not have been cashed unless Defendant, as the last
endorser, was present.4 Additionally, multiple lay witnesses testified the signature appeared to be Defendant’s
based upon their familiarity with Defendant’s signature generally.5 Finally, Defendant’s account number
is written on at least one fraudulent check for $2,900,
and a bank teller testified Defendant cashed at least
“some checks” with them.
While Defendant testified in his own defense and
urged Ms. Keeling acted alone, the jury could have
found his testimony less than credible when he, for
example, disclaimed knowledge of $28,000 worth of
fraudulent checks approved at the same school board
meeting where he recommended laying off two teachers
and combining classes due to negative balances. A
reasonable jury could have rejected Defendant’s
explanation that he trusted Ms. Keeling completely
and overlooked the hundreds of thousands of dollars
spent on non-existent school improvements. Based
on all the evidence, a reasonable juror could infer
Defendant: (1) specifically agreed to commit bank fraud
and embezzle federal program funds; and (2) acted in
furtherance of that agreement. Consequently, Defendant’s conviction must stand.

4

We note several bank tellers testified they did not consistently enforce this policy. Nevertheless, it is within the province
of the jury to weigh the evidence.
5

We note the handwriting expert’s findings were inconclusive.
The handwriting expert explained he could not make a determination because the checks he examined were electronic copies,
not originals.

16a
C.
Third, Defendant argues he was denied due process
due to prosecutorial misconduct. Specifically, Defendant
identifies six statements made by the Government
which he alleges constitute reversible prosecutorial
misconduct.
A prosecutor’s misconduct may render a trial “so
fundamentally unfair as to deny [a defendant] due
process.” Underwood v. Royal, 894 F.3d 1154, 1167
(10th Cir. 2018) (quoting Littlejohn v. Trammell, 704
F.3d 817, 837 (10th Cir. 2013)). To determine whether
a prosecutor’s comments rendered a defendant’s trial
fundamentally unfair, the court: (1) “decides whether
the prosecutor’s comments were improper”; and (2) if
so, examines the comments likely effect on the jury’s
verdict. United States v. Christy, 916 F.3d 814, 824
(10th Cir. 2019).
Turning to the first prong, “courts have struggled to
determine when a prosecutor’s statements are improper.”
Id. While any improper comments should be examined
in context, courts have recognized prosecutorial comments may be improper when they refer to matters
not in the evidence or distort the record by misstating
the evidence. Id. 824-25. Once the court finds the
prosecutor made an improper comment, the court then
“assesses whether the comment affected the jury’s
verdict.” Id. at 825. To determine whether comments
affected the jury’s verdict, courts consider the trial in
its entirety, including “the extent of the misconduct,
and the role of the misconduct within the case,” as well
as “[t]he prevalence and degree of improper statements.” Id. at 826 (citing United States v. Gabaldon,
91 F.3d 91, 94 (10th Cir. 1996)). “Absent prejudice, a
prosecutor’s improper statements alone will not
require a new trial.” Christy, 916 F.3d at 826 (citing

17a
United States v. Sorensen, 801 F.3d 1217, 1242-43
(10th Cir. 2015)).
Defendant objected to each of the six alleged
improper statements, and the district court overruled
each objection. Therefore, we conduct a de novo review
for error. See Christy, 916 F.3d at 826 (citing United
States v. Anaya, 727 F.3d 1043, 1052 (10th Cir. 2013)).
1.
Here, Defendant first argues the Government
misstated the evidence during cross examination of
Defendant when the prosecutor stated:
1. Corey Dawson “recognized your signature”
on the forged checks;
2. “Your signature appears on all of those
checks according to [Corey Dawson]’;
3. Sandy Stone “has seen your signature all
over the place and she says that’s your signature on that check”; and
4. Sandy Stone “said that looked like your
signature to her,” to which Defendant
responded, “it’s not my signature,” and the
prosecutor stated, “that’s not what she said.”
In each of these statements, Defendant argues the
Government implied Corey Dawson and Sandy Stone
knew it was Defendant’s signature on the checks, when
in fact they testified it appeared to be Defendant’s
signature. Both Corey Dawson and Sandy Stone
testified they could not say with certainty Defendant
signed the checks at issue. Nevertheless, we do not
find the Government misstated the evidence in this
cross examination. The Government need not qualify
each of the above statements with “alleged” or “purported” signature.

18a
Moreover, even if the Government’s cross examination slightly misconstrued the witnesses’ testimony,
it is inconceivable to suggest these misstatements
influenced the jury’s verdict. These minor misstatements occurred during the cross examination of a
single witness during a three-and-a-half-day trial. Both
Corey Dawson and Sandy Stone were cross examined
at length, and the jury heard extensive evidence with
respect to whether it was truly Defendant’s signature
on the fraudulent checks. In sum, it defies logic to
believe the jury’s verdict would have been different but
for these statements. Therefore, even if the Government’s
statements were improper—which they were not—
Defendant was not prejudiced by them. Accordingly,
these statements do not require reversal.
2.
Next, Defendant argues the Government misstated
the evidence when the prosecutor stated Nancy Hughes
“testified that the MAS system is Cloud based, which
means you could reach it from any computer.” Defendant argues the Government’s statement mischaracterized
the evidence because Ms. Hughes testified the MAS
system had only been Cloud-based for “the last couple
years.” Because Defendant was not working at GrantGoodland in the last couple years, Defendant argues
the Government’s statement is a material misstatement of the evidence.
Although we find the Government’s statement was
misleading to the extent that no Cloud-based MAS
program existed during Defendant’s tenure with
Grant-Goodland, we also conclude Defendant suffered
no prejudice by the mischaracterization. In the course
of a three-and-a-half-day trial, this single comment
does not affect the overwhelming weight of the evidence. Moreover, when defense counsel objected to the

19a
misstatement he also provided his characterization of
the evidence—that is, defense counsel stated in front
of the jury that Ms. Hughes testified “it was Cloud
based the last two years, but before that it was not
Cloud based.” Defendant then stated, “I haven’t been
at [Grant] the last two years.” Therefore, the jury
heard both characterizations of the evidence simultaneously along with Defendant’s statement that he
was not employed by Grant-Goodland when MAS was
Cloud-based. When ruling on the objection, the district
court explicitly stated, “it is up to the jury” to evaluate
the evidence. With this additional information and
instruction, the jury was able to fairly evaluate the
evidence when reaching its verdict. Therefore, we find
these statements did not prejudice Defendant, and so,
there is no reversible error.
3.
Finally, Defendant argues the Government’s statements during closing arguments were improper when
the prosecutor stated:
Did [Defendant] leave at noon? Yep. He took
a check, left at noon, went to the bank and
cashed it and went to the ranch. Look at the
time stamps on the checks. They are not all in
the afternoon, but most of them are. He told
you what he did. Left the school with a check,
went to the bank and cashed it.
Defendant argues these statements reflect the
Government’s opinion and are not supported by
evidence in the record.
While we recognize the Government is entitled to “a
reasonable amount of latitude in drawing inferences
from the evidence” during closing arguments, this
latitude “does not extend to improper suggestions,

20a
insinuations or assertions.” United States v. Manriquez
Arbizo, 833 F.2d 244, 247 (10th Cir. 1987). In this case,
we need not decide whether the Government’s statement was improper because, either way, the statement
was not prejudicial. In the context of the entire record,
the Government’s statement was “not so egregious as
to influence the jury to convict [Defendant] on evidence
not in the record.” See id. at 248. The Government
presented substantial evidence with respect to Defendant’s guilt and the district court instructed the jury
that counsel’s arguments were not to be considered as
evidence. Accordingly, we find the Government’s statement during closing argument was not prejudicial,
and therefore, does not require reversal.
D.
Finally, Defendant argues the district court committed procedural error in sentencing. Specifically,
Defendant argues the district court erred in applying:
(1) the obstruction-of-justice enhancement; and (2) the
disruption-of-governmental-function upward departure.
When a defendant challenges the district court’s application of the sentencing guidelines, “we review legal
questions de novo and factual findings for clear error,
giving due deference to the district court’s application
of the guidelines to the facts.” United States v. Mollner,
643 F.3d 713, 714 (10th Cir. 2011) (citing United States
v. Munoz-Tello, 531 F.3d 1174, 1181 (10th Cir. 2008)).
1.
First, Defendant argues the district court erred in
applying the obstruction-of-justice enhancement based
on his alleged perjury at trial. Under the obstructionof-justice enhancement, if a defendant willfully obstructs
or impedes the administration of justice with respect
to the prosecution of the charged offense, the district

21a
court must increase the offense level by two levels.
U.S.S.G. § 3C1.1. Before the district court can apply
the enhancement, it must find all three elements of
perjury—that is: (1) a false statement under oath;
(2) concerning a material matter; (3) with the willful
intent to provide false testimony. United States v.
Hawthorne, 316 F.3d 1140, 1146 (10th Cir. 2003). The
district court must also “be explicit about which representations by the defendant constitute perjury.” Id.
Here, the district court explained its decision to
apply the obstruction-of-justice enhancement as follows:
The defendant’s testimony regarding the
presence of his signature on numerous checks
used to carry out the fraud conspiracies in
this case was directly contradictory to testimony of other witnesses and the evidence
presented in this case. His denial of any
involvement in the scheme to defraud Grant
Public Schools was a willful attempt by the
defendant to obstruct justice in this case and
not a result of confusion, mistake, or faulty
memory. Therefore, the Court finds by a preponderance of the evidence that the defendant
was appropriately given a two-level enhancement for obstruction.
Upon the Government’s inquiry, the district court
clarified its findings and specifically stated Defendant
lied with respect to: (1) his signature on the checks;
(2) his receipt of embezzled funds; and (3) his blatant
denial of any involvement in the scheme to defraud.
The district court also indicated “it’s pretty much the
whole kit and kaboodle.” While it is not entirely clear
what this last statement means, it seems to indicate

22a
the district court believed the entirety of Defendant’s
testimony was perjured.6
Reviewing the court’s decision, we conclude the
district court made the requisite findings to apply the
obstruction-of-justice enhancement. It found Defendant
made false statements with respect to: (1) his signature on the checks; (2) his receipt of embezzled funds;
and (3) his involvement in the scheme to defraud. It
goes without saying these perjured statements are
material to the charged offenses, and the district court
determined the statements were made willfully.7
Nevertheless, Defendant argues no factual basis
exists for the district court’s findings. Reviewing the
district court’s factual findings for clear error, we
find the record adequately supports the district court’s
determinations. While no one witness could say with
100% certainty Defendant signed the checks, numerous witnesses testified the signature appeared to be
Defendant’s based on their familiarity with Defendant’s
signature generally. While the handwriting expert’s
findings were inconclusive, the handwriting expert
6

We note that the district courts “whole kit and kaboodle”
statement standing alone would run afoul of Hawthorne because
it does not specifically identify the portion of perjured testimony.
See Hawthorne, 316 F.3d at 1146.
7

Material evidence is testimony that “if believed, would tend
to influence or affect the issue under determination.” United
States v. Miranda, 15 F. App’x 674. 677 (10th Cir. 2001) (affirming enhancement even when the district court did not explicitly
find materiality). Although the district court did not make an
explicit finding regarding materiality, we have previously affirmed
an obstruction-of-justice enhancement when the finding was
“implicit.” See Hawthorne, 316 F.3d at 1146. Here, Defendant’s
testimony that he did not sign any fraudulent checks or receive
any embezzled funds is unquestionably material to the charged
offenses.

23a
explained he could not make a determination because
the checks were photocopies rather than original
documents. With respect to receipt of embezzled funds,
although the Government could not trace the proceeds
to Defendant directly, a bank teller testified Defendant cashed at least some checks, and his bank account
number was written on the back of a fraudulent check
for $2,900. Based upon this evidence and the record as
a whole, we find no clear error with respect to the
obstruction-of-justice enhancement.
2.
Finally, Defendant argues the district court erred
in applying the disruption-of-governmental-function
upward departure. Guideline section 5K2.7 provides
“[i]f the defendant’s conduct resulted in a significant
disruption of a governmental function, the court may
increase the sentence above the authorized guideline
range to reflect the nature and extent of the disruption
and the importance of the governmental function
affected.” U.S.S.G. § 5K2.7. Departures are not justified, however, “when the offense of conviction is an
offense such as bribery or obstruction of justice”
because “interference with a governmental function is
inherent in the offense.” Id.
In this case, Defendant argues disruption of a
government function is inherent in the offense of
conviction—embezzlement of federal program funds.
Defendant cites no authority for his proposition, and
although we have not directly addressed the issue,
other circuits have applied the enhancement in similar
cases. See United States v. Gunby, 112 F.3d 1493, 1500
(11th Cir. 1997) (applying section 5K2.7 to convictions
for tax fraud); United States v. Khan, 53 F.3d 507, 518
(2d Cir. 1995) (applying section 5K2.7 to Medicare
fraud). We are persuaded by the logic those courts applied.

24a
Specifically, the Sentencing Commission explicitly
excluded the application of section 5K2.7 to bribery
and obstruction of justice offenses. If the Commission
wanted to preclude the application of section 5K2.7 to
embezzlement offenses, it could have done so. It did
not. See Gunby, 112 F.3d at 1500. Furthermore, Defendant was sentenced pursuant to Guideline 2B1.1. This
guideline provision does not explicitly account for an
interference with the administration of a government
program. Khan, 53 F.3d at 518. Therefore, reviewing
the legal question de novo, we find application of
section 5K2.7 was proper.
Nevertheless, Defendant argues even if application
of section 5K2.7 is generally proper, the record does
not support the factual basis underlying the departure
in this case. Reviewing the district court’s factual
findings for clear error, we find the district court
adequately supported its application of 5K2.7. The
district court reasoned:
The conspiracies for which the defendant was
convicted resulted in significant monetary
loss to the school district. As a result, the
defendant’s actions led to state intervention
by the Oklahoma State Department of Education on March 24, 2016. The State Department
of Education memorandum dated June 23,
2016 specifically cites their road to intervention began due to the financial mismanagement
of Grant Public Schools, which would be
attributed to the actions of the defendant.
Further, the order granting state intervention was based upon the district’s failure to
meet financial requirements . . . . The state’s
intervention was after the defendant’s fraudulent conduct in this case which resulted in

25a
excess of $1 million loss to the school district
from June 2010 to January 28, 2016. Therefore, based on the evidence in this matter, the
defendant’s fraudulent scheme was significant in the board’s decision to annex Grant
Goodland’s Public Schools into the Hugo
Public School System. The defendant’s conduct did far more than simply contribute to
the closing of a school. It caused the loss of
employment and morale of the teachers and
staff at Grant Public Schools. It damaged the
local school patrons’ confidence in the function of local government. The consolidation of
Grant Public Schools into the Hugo Public
School system disrupted the function of the
Hugo Schools and required them to accommodate additional students into its system. The
nature and extent of the disruption caused by
the defendant in this case was significant as
it caused permanent damage to Grant Public
Schools, Hugo Public Schools, and all of its
teachers, students, and staff, as well as the
confidence of the community in their local
government functions.
Based on these findings, the district court imposed
a two-level upward departure. Our review of the
record convinces us these factual findings are well
supported. While the State Department of Education
memorandum identifies other problems at GrantGoodland, it repeatedly addresses the financial mismanagement of the school. Financial mismanagement
need not be the sole factor for the annexation for the
district court to determine Defendant’s actions substantially disrupted government functioning. In fact,
the district court acknowledged the State Department
of Education memorandum identified other issues at

26a
Grant-Goodland, including its failure to meet accreditation standards. Nevertheless, based on the evidence
before it, the district court found Defendant’s actions
substantially contributed to the annexation and interrupted government functioning. Based on these findings
and the record as a whole, we find the district court
did not err in applying the disruption-of-governmentalfunction upward departure.
* * *
For the reasons provided herein, Defendant’s conviction and sentence are affirmed.

27a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
[Filed: December 12, 2019]
————
No. 18-7051
————
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
BUCK LEON HAMMERS,
Defendant-Appellant.
————
ORDER
Before TYMKOVICH, Chief Judge, BALDOCK and
EID, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted
to all of the judges of the court who are in regular
active service. As no member of the panel and no judge
in regular active service on the court requested that
the court be polled, that petition is also denied.
Entered for the Court
/s/ Elisabeth A. Shumaker
ELISABETH A. SHUMAKER, Clerk

28a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF OKLAHOMA
[Filed: February 6, 2018]
————
Case No. CR-17-033-RAW
————
UNITED STATES OF AMERICA,
Plaintiff,

v.
BUCK LEON HAMMERS,

Defendant.
————
ORDER
This case came on for pretrial conference on
February 1, 2018. After hearing oral argument from
counsel, the court made a preliminary ruling as to
the government’s motion in limine. Defense counsel
requested an opportunity to file a response, which he
has now done. (#36). Before the hearing, defendant
had already presented his basic position in his “pretrial statement” (#26). The court hereby memorializes
its ruling on the government’s motion in limine. The
motion is granted for the reasons stated at the
hearing.
The court did not specifically address Rule 803(1) –
“present sense impression,” Rule 803(2) – “excited
utterance” and Rule 803(3) – “then-existing mental,
emotional or physical condition.” The court is not persuaded these exceptions apply. The statement in the
note is not a present sense impression as it is a

29a
statement about conduct which took place in the past.
It is likewise not an excited utterance, as there is no
indication of excitement or spontaneity. Finally, it is
not a statement of then-existing mental, emotional or
physical condition, again for the reason that it
describes past conduct and the declarant’s purported
acceptance of responsibility for that conduct. In his
response (#36), defendant cites United States v.
Lozado, 776 F.3d 1119 (10th Cir.2015). That case did
not involve a suicide note and dealt with the
“statement against interest” exception contained in
Rule 804(b)(3), which exception the court addressed at
the hearing.
“A criminal defendant’s right to present a defense is
essential to a fair trial.” United States v. Serrano, 406
F.3d 1208, 1214 (10th Cir.2005). This right, however,
is not absolute. Id. at 1215. For example, the accused
does not have an unfettered right to offer testimony
that is incompetent, privileged, or otherwise inadmissible under standard rules of evidence. Id. (quoting
Taylor v. Illinois, 484 U.S. 400, 410 (1988)). This court
determined that the evidence which is the subject of
the motion is hearsay and that no hearsay exception
was applicable. As the court noted at the hearing, this
ruling does not preclude defendant from presenting
the defense in question, but does prohibit the use of
the challenged document in support thereof.
As to the residual exception (Rule 807 F.R.Evid.),
the Tenth Circuit has stated that courts must use
caution because an expansive interpretation would
threaten to swallow the entirety of the hearsay rule.
See United States v. Tome, 61 F.3d 1446, 1452 (10th
Cir.1995). The court’s ruling is in conformity with this
principle as well.

30a
It is the order of the court that the motion in limine
of the government (#25) is hereby granted.
ORDERED THIS 6th DAY OF FEBRUARY, 2018.
Dated this 6th day of February, 2018.
/s/ Ronald A. White
Ronald A. White
United States District Judge
Eastern District of Oklahoma

31a
APPENDIX D
[1] IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF OKLAHOMA
————
No. CR-17-33-RAW
————
UNITED STATES OF AMERICA,
Plaintiff,
-vsBUCK LEON HAMMERS,
Defendant.
————
TRANSCRIPT OF PRETRIAL HEARING
BEFORE THE HONORABLE RONALD A. WHITE
UNITED STATES DISTRICT JUDGE
FEBRUARY 1, 2018
————
APPEARANCES
MR. ROBERT A. WALLACE, 520 Denison Avenue,
Muskogee, Oklahoma, 74401, Assistant United States
Attorney on behalf of the Plaintiff;
MR. WARREN GOTCHER, Gotcher & Beaver P.O.
Box 160, McAlester, Oklahoma 74052, Attorney on
behalf of the Defendant.
REPORTED BY:

KEN SIDWELL, CSR-RPR
United States Court Reporter
P.O. Box 3411
Muskogee, Oklahoma 74402

32a
* * *
[21] longer. That would lead to the suicide. And I’m
being honest about this, I did it. Why would she do
that? She wouldn’t.
THE COURT: Well, let’s –
MR. GOTCHER: And I don’t believe there’s any
bright line decision that says if it’s a crime of dishonesty, you don’t –
THE COURT: Oh, no. There’s not. No. I came up
with that on my very own. I never even read that
anywhere. I just – so it happens. Well, right now I’m
ruling that it is not coming in. I don’t believe it’s a
statement against interest because, as the Lemonakis
case says, penal interest is of no interest – is of no
moment to a dead man. And she wasn’t facing – she
knew she wouldn’t be facing criminal prosecution if
she killed herself. Also, I can’t find that it’s corroborated by circumstances clearly indicating its trustworthiness. Mr. Gotcher, you make some good arguments,
but I tend to come down on the fact that it seems to be
a circumstance which I think is certainly as – happens
certainly as often to re-write history as it does to accurately clear the air in a – in a suicide note. Also, I think
that one could rationally question the rationality of
someone who’s about to commit suicide, and wanting
to take – perhaps wanting to take guilt on themselves
to clear someone that they may have some close relationship with. [22] And also I think that if – you know,
if she’s – she’s been untrustworthy before in her
statements or in her actions and in committing the
crimes that she’s stated were committed as a coconspirator and that she says herself, and so I think
her believability is subject to question. Therefore, I

33a
can’t find that element number three under 804(b)(3)
is found.
I think, that having found that, the residual exception I can’t apply either. I think law is pretty clear – I
wanted to in the past and I never have admitted any
hearsay under the residual exception, Rule 807. And
the Circuit says you should use caution before using
that rule to guard against the exception threatening to
swallow the entirety of the hearsay rule. It’s supposed
to be used in extraordinary circumstances.
One of the four elements is if it is offered as evidence
of a material fact, I agree. You win on that one, Mr.
Gotcher, for sure. On number four, admitting it will
best serve the purposes of these rules interest of
justice, I think that’s – I think that’s a wash. But,
basically, I don’t have – I don’t think it has equivalent
circumstantial guarantees of trustworthiness. So I’m
going to grant the motion in limine at this time. You
can, of course, reurge it and I expect you to. You can
do it at a break, that would be great. If you need to
approach, then [23] I – I don’t know how you’d want to
get it in, but least disruptive way necessary, but I
certainly anticipate you making an extensive record
on it.
MR. GOTCHER: If I could just for a second, Your
Honor. The other problem is, is a conspiracy, they may
or may not be able to prove these two people conspired
or working separately. And she’s the only person with
a computer that would be able to manufacture these
things. And I think that would go to the substantial
circumstances of trustworthiness.
THE COURT: And I read that in your – and I take
that into account and I read that in your pretrial
statement. And I’ll listen to the evidence on that and

34a
leave myself open to reconsideration. But right now,
that’s my – that’s my ruling, and I feel pretty comfortable with it, though it was certainly – certainly not a
frivolous effort to get it in. I mean, I understand.
MR. GOTCHER: Well, the fact it’s just our defense,
I mean.
THE COURT: Well, I understand and I’m not –
MR. GOTCHER: Without the note, we probably
don’t have much of a defense, but we’ll still try.
THE COURT: Well, now, you said – I mean, that
doesn’t stop you from blaming Ms. Keeling. Is that –
that’s the right name? It doesn’t stop you from blaming
[24] her. And, I mean, I’m not – my purpose is not to
take away your defense. You’re entitled to your
defenses, but they’ve got to be supported by admissible
evidence. And all I’m saying is this evidence is not
admissible. I don’t think it goes to the level of when I
grant a motion to suppress and the government has to
dismiss the case. I don’t think it goes to that level. So
I don’t think I’m denying you a defense. I’m denying
you a –
MR. GOTCHER: Important part of it.
THE COURT: – a material part that I understand
why you’d want to get in. But I understand, even
without it, what your defense is going to be I think,
and sure I’ll learn more about it. So in any event. What
other evidentiary concerns, if any, are there if you
know, Mr. Wallace?
MR. WALLACE: Judge, we do have some Jencks
material that I was discussing with Amber over lunch
whether or not we had given it. Obviously we don’t
have an obligation to give it until the witnesses testify.
It’s been our practice to give it in advance.

35a
THE COURT: Thank you.
MR. WALLACE: We will look this afternoon to make
sure it’s been given. If it has not, we will get that to
Mr. Gotcher before the end of the week. We’ll get it
before the close of business tomorrow.

36a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF
OKLAHOMA
————
No. 17-CR-00033-RAW
————
UNITED STATES OF AMERICA,
Plaintiff,
vs.
BUCK LEON HAMMERS,
Defendant.
————
TRANSCRIPT OF
JURY TRIAL PROCEEDINGS BEFORE
THE HONORABLE RONALD A. WHITE,
AND A JURY
UNITED STATES DISTRICT JUDGE
FEBRUARY 8, 2018
VOLUME III OF IV
————
APPEARANCES:
For The Plaintiff: MR. ROBERT A. WALLACE
Assistant United States Attorney
520 Denison Avenue
Muskogee, Oklahoma 74401
For The Defendant: MR. WARREN GOTCHER
Gotcher & Beaver Law Firm
P. O. Box 160
McAlester, Oklahoma 74502
Court Reporter: KARLA S. McWHORTER, CSR-RPR
United States Court Reporter

37a
* * *
[469] out of the courtroom and the door is closed. Mr.
Gotcher, do you need a minute or two?
MR. GOTCHER: Yes, Your Honor, I need to talk to
my client.
(PAUSE)
MR. GOTCHER: Comes now the Defendant and
moves for Judgment of Acquittal on Count 1 in that
the evidence totally fails to show that there was any
conspiracy to commit bank fraud between this defendant and co-conspirator 1, the only one nominated to be
a potential conspirator.
Further, Your Honor, the reason is not only is the
evidence insufficient, but the bank fraud lacks an
element. There is an element of bank fraud that says
the institution has to be put at risk. There is absolutely no evidence that the institutions were put at
risk. This fraud by co-conspirator 1 or – I am just
naming that. We are not – I am not – we are not saying
we are in any type of conspiracy, Your Honor, but it
was at the Grant Goodland school, Grant Goodland.
That’s the one that suffered any loss. I think the fourth
element of bank fraud is that there has to be – the
bank institution has to be put at risk. We have four
tellers or three tellers and a bank officer and no one
testified that the bank was put at risk.
THE COURT: Is this Mr. Wesberry again?
MR. GOTCHER: No, sir.
[470] THE COURT: Okay. I mean, is it – is it the
same issue that – and you represented Mr. Wesberry,
didn’t you?

38a
MR. GOTCHER: That was on the loss, the amount
of loss, Your Honor.
THE COURT: Oh, the amount of loss. Okay, all
right.
MR. GOTCHER: I don’t think we – I think the bank
was put at risk and Mr. Wesberry to some extent, if
you believe the evidence. But the issue at that point
was the amount of loss because of some checks that
were substituted that the bank already had that loss.
THE COURT: Right. Okay, thank you.
MR. GOTCHER: I think that was the issue there.
THE COURT: Okay.
MR. GOTCHER: Among others. But anyway, on
this, Your Honor, the – there is no evidence by anybody
that the bank was ever put at risk. Grant Goodland’s
bank account was the one and that’s who it was paid
against. That is the fourth element of bank fraud and
there is case law that says that is a part of the elements. I can find it, if you give me a chance, on my
iPad, but I think it is – but I think the instructions
satisfactorily show that.
Then on Count 2, conspiracy to embezzle federal
program funds, they say that Buck Hammers caused
false invoices. There is no proof of that. They say that
Buck Hammers did [471] all of this, but there is no
proof Buck Hammers did any of them, not even signing
the checks. And by the way, it is the same thing on
Count 1. They just have Buck Hammers. They don’t
have anybody else doing it but Buck Hammers. Now,
they do have him presenting the checks in Count 1,
but that’s the only thing.
Count 3, the same thing, Your Honor. They have
Buck Hammers embezzling. And by the way, embez-

39a
zlement on Counts 2 and 3 – embezzlement means
that they had to have property, they had to be
entrusted with the property. The testimony is clear
that the person that was entrusted is the treasurer,
Jimmie Sue Miller. She is the banker according to
Nancy Hughes. She is the person who has the funds.
Even Cathy Pugh said that. Buck Hammers had no
check writing authority. They weren’t his funds. He
never was entrusted with them. It was the treasurer
that did that. So he could not be guilty of embezzlement at all based on the evidence that they have.
There is no evidence that he was ever entrusted with
the funds, with anything.
Then on Counts 4 through 9 on the bank fraud, we
raise the issue, Your Honor, that Buck Hammers –
there is no evidence that Buck Hammers caused the
false invoices, no evidence that he caused the false
invoices to be inserted into the regular agenda because
the evidence was Jimmie Sue Miller was the one and
Pam Keeling did the agenda, not Buck [472] Hammers.
There is no evidence that he knew the invoices were
false. There is no evidence that he approved false
purchase orders or false invoices. He didn’t have any
checks or cause any checks to be prepared. That was
Pam Keeling and/or Jimmie Sue Miller. He never had
check writing authority or check signing authority.
And seven, there is no evidence that he ever converted
any of the proceeds to his own use.
Then specifically again, Your Honor, bank fraud,
there is no testimony that any bank institution was
ever put at risk, which is an essential element.
I would point out, Your Honor, that I did not hear –
and this is specific to Count 6. I think that is Janet
Lynn Storie, who is the psychology counselor. I never
heard any evidence concerning check number 1040. I

40a
looked at her checks as they went through them and
her check numbers – just a minute. Let me try to find
my notes. (PAUSE) I am sorry, Your Honor. I am not
a very neat person when it comes to this. (PAUSE)
THE COURT: You are saying that check 1040 was
never introduced?
MR. GOTCHER: It may have been introduced, but
there is no testimony by anyone that –
THE COURT: That’s what I meant.
MR. GOTCHER: Yes, that it was false. I mean, it
was introduced in mass.
[473] THE COURT: Right.
MR. GOTCHER: There was no testimony that says
it was a false check. 1040 was the first one? The first
one I heard her say was – if I can find my notes here.
(OFF THE RECORD DISCUSSION BETWEEN
MR. GOTCHER AND MR. WALLACE)
MR. GOTCHER: Janet Stories is five – Government’s Number 22, the check number is five? Pardon
me?
MR. WALLACE: I asked Matt to put 22 up so we
would all see what we are talking about.
(PAUSE)
(OFF THE RECORD DISCUSSION BETWEEN
MR. GOTCHER AND MR. WALLACE)
MR. GOTCHER: I will withdraw that part of the
demure, Your Honor. If he says that is check 1040, it
does – I had check five is what I saw. You see where I
saw check five.
THE COURT: Yes.

41a
MR. GOTCHER: But on that, Your Honor, my
argument still stays the same, there is actually no
evidence that the bank institutions were put at risk.
THE COURT: Okay, thank you. Mr. Wallace?
MR. GOTCHER: And, Your Honor, I am looking at
2.58, 10th Circuit.
THE COURT: All right.
[474] MR. WALLACE: Your Honor, the – I think I
want to work in reverse order, if I may. The question
of whether or not property was entrusted to the
superintendent at the school, it is memorialized in the
elements as is he an agent of the school. That’s the
element. And clearly as the superintendent and
described in the evidence here as the CEO, he is the
business manager, the personnel manager. He is the
individual charged with executing the will of the
Board of Education. He is hired by the Board of
Education for the purpose of executing the operations
of the school and that makes him an agent of the school
and that’s what is required. To say that only the
treasurer has authority over the funds is a narrow
reading of what happens in every school, every place.
The superintendent is – and the administrative offices
are in a position to generate a process that results in
expenditure of those funds. And in this instance, that
agency is what resulted in the loss. So, I think the
question of whether or not he was entrusted with the
funds was clearly answered by Nancy Hughes, by
Chris Gullekson, by all of the school employees that
have testified with regard to his role as the purchasing
agent for the school and his role as the activity fund
coordinator for the school. These are clearly agency
relationships to the school that would satisfy that the
property of the school was entrusted to him.

42a
The question of whether or not – and I really boil
this [475] down to what I hear is two arguments.
The second is bank at risk in the circumstance. The
case law tells us that the deposits of a bank, although
deposited in customer accounts, are the object of bank
property interest and that is true because the banks
take the deposits and invest those deposits. In fact,
they invest more in the deposits based on the acquired
reserves. They keep only so much in the bank as is
required by the Fed and they invest in bonds or they
loan the money out to others. They have a direct
property interest in their deposits. And if you are
engaging in a scheme that is taking cash out of the
bank deposits pursuant to a fraudulent scheme, then
you are taking the bank’s property interest when you
take that cash out. So, when counsel argues the banks
have to be placed at risk, that would mean that there
is never a fraud big enough for us to charge unless we
actually threaten the existence of the institution.
A risk can be a simple fraud above a $1,000.00 and
the way we have this charged above $5,000.00. So once
we see the threshold of the statute, we have deprived
the bank of its property interest in the monies that
have gone out the door and we are clearly at this point
in the hundreds of thousands of dollars based on the
evidence we have seen and based on the checks that
are in evidence and based on the POs that are in
evidence. And the evidence taken in the light [476]
most favorable to the government at this point, which
is our standard at this point, indicates that our story
is accurate, that there was an agreement between Pam
Keeling and Buck Hammers and potentially others. I
think we could have an argument for Shelia Smith. I
think there are others that we have not brought in
that might have been involved in the conspiracy and

43a
that’s why we have it pled the way we do, that it’s Buck
Hammers and co-conspirator 1, which is clearly from
the evidence Pam Keeling, and others known and
unknown to the grand jury who had agreed to take the
school’s money out of the bank. That’s the bank fraud.
They were using the bank as the mechanism to get the
money out of the school’s treasury and it was the
checks, based upon false invoices, that were going
through the process at the school initiated by Pam
Keeling and Mr. Hammers so that the Board would
approve what they were doing. It was that process that
was depriving the bank of the money. We don’t have to
put the institution at risk. We simply have to impact
the bank’s property interest in it.
THE COURT: Well, the comment – it’s in pattern
criminal jury instruction 2.58, says in the Tenth
Circuit it is clear that proof that the defendant put a
bank at risk is not required for a successful prosecution under 1344.2. And it goes on to cite United States
versus Sapp. So, I think that dispenses with that.
[477] What about evidence that Mr. Hammers converted the proceeds from negotiation of the checks to
his own use?
MR. WALLACE: Well, the evidence, I believe, that
shows that is he cashed those checks when he signed
them and he walked out the door with the cash. There
is no indication that cash ever comes back to the
school. Here is a guy living in a big house on a hill on
a ranch with a bunch of cows. When he walks out the
door with the cash in hand, he has converted that to
his use.
THE COURT: And what evidence is there that Ms.
Keeling created – first of all, any evidence that Mr.
Hammers created invoices? Second, that Ms. Keeling

44a
did it at his instruction or with or in agreement?
Where does that come in?
MR. WALLACE: In the interaction that was going
on in the office. Closed door meetings, the relationship
they had and then the process of how those invoices
got presented. Cathy Pugh testified that if there was
ever question about one of those vendor invoices, they
asked Mr. Hammers to answer those questions and he
did. Counsel was very effective in getting Ms. Pugh to
say that sometimes Mr. Hammers would defer to Ms.
Miller on those questions. Cathy Pugh was very clear
that Mr. Hammers was the purchasing agent. He was
the fellow they asked the questions to when they had
questions about POs. So, the creation of those POs
[478] in a fraudulent setting and if you had a question
about those, you ask Buck Hammers.
THE COURT: All right. What else?
MR. WALLACE: I believe that’s it.
THE COURT: Okay. Anything else, Mr. Gotcher?
MR. GOTCHER: Yes, sir, Your Honor.
As far as Ms. Pugh’s testimony, I was not very – I
was not very – I was not lucky to find it or being very
good at it. The government’s own discovery has her
saying those exact words. That they would talk to Mr.
Hammers and if he didn’t know, they would ask
Jimmie Miller. That’s why I said he went to Jimmie
Miller because the government knows that. And it is
disingenuous, I think, to get up and say, oh, I found it
out. They know how I found it out, they gave it to me,
is all I am saying on that.
MR. WALLACE: That’s not what I was saying.
MR. GOTCHER: But anyway, back to this, Your
Honor. There is no evidence to show that he did any of

45a
this. It is pure possibility, speculation. His statement
of . . . well, they are in the same office together, they
were friends together. It is pure speculation and possibilities, not probabilities, and that is the problem with
their case. There is no handwriting, there is no nothing that works to get Mr. Hammers into this. And
we ask that our Motion for Judgment of Acquittal
under – I think it is Rule 26. I may be wrong, [479]
but –
THE COURT: 29.
MR. GOTCHER: Pardon?
THE COURT: 29.
MR. GOTCHER: 29. I knew it was a negative – be
sustained.
THE COURT: Thank you. In considering a Motion
for Judgment of Acquittal, the Court views the evidence in the light most favorable to the government.
Judgment of Acquittal is proper only if the evidence
and all of the inferences to be drawn from it is insufficient to permit a rational tryer of fact to find the
essential elements of the crimes beyond a reasonable
doubt.
The Court finds that a rational tryer of fact here,
from viewing the evidence in the light most favorable
to the government, could find all of the elements beyond a reasonable doubt. So the Motion for Judgment
of Acquittal under Rule 29 will be denied.
What else do we need to cover before we start your
evidence? Is it this Jimmie Sue?
MR. GOTCHER: Possibly, Your Honor. I’ve got to
talk to her.

46a
THE COURT: Okay. Is there some chance you are
not going to call anybody?
MR. GOTCHER: No, sir.
[480] THE COURT: Okay. I mean, in the long run
that’s your call, but the jury might be mad at me if I
call them back and say, oh, never mind. No, you can do
whatever you want to.
MR. GOTCHER: Right now, we do plan on calling
witnesses. I need to talk to Jimmie Sue. Obviously, she
has been a government witness and I have not talked
to her.
THE COURT: And who else?
MR. GOTCHER: Possibly the defendant, Your
Honor. And there could be a third witness, but we
aren’t sure on that. And that would be Mr. Allred, if he
is called.
THE COURT: Okay. I would say if there are three
witnesses, we don’t get the case to the jury today. We
will let them go home early and we will come back and
do instructions and closings tomorrow morning. That
is sort of just my feel of it. I don’t suppose anyone
really wants them to go out at 4:30. I don’t think that
is good for anybody.
So that’s sort of the plan. If it changes, let us know.
MR. GOTCHER: As of right now, that’s my plan. If
my client and I decide differently, we will let you know.
We will have at least one witness and I am certain that
the government would probably question her for a
period of time.
THE COURT: All right. Anything else before we
take a break?
MR. WALLACE: Not from the government.

47a
* * *
[549] you very much.
(JURY OUT)
THE COURT: The record should reflect jury is out
of the courtroom and the door is closed. Renewal of
your motion, Mr. Gotcher?
MR. GOTCHER: Yes, sir, Your Honor. Comes now
the defendant, Buck Hammers, and moves his Motion
for Judgment of Acquittal on all counts under Rule 29
and I would adopt the argument previously made,
Your Honor.
THE COURT: Thank you. Anything to add, Mr.
Wallace?
MR. WALLACE: Same argument as before, Judge.
THE COURT: Thank you. As I previously ruled, I
believe in taking the evidence in the light most
favorable to the government, as I am obliged to, that a
rationale tryer of fact, this jury here, could, in fact, find
each and every element of the crimes charged beyond
a reasonable doubt. Therefore, the Rule 29 motion will
be denied.
Have you received copies of the jury instructions?
No. We are sort of keeping them back from you until
the last minute. What I would like for you to do is –
they are ready. So, you can look at them for a while
and then get with Mr. Smith and argue with him for a
while and we will do some shuttle diplomacy and then
we will come in and make a record on the instructions
before you leave for the evening.
Please get with Ms. Wilson and make sure that –
Ms. [550] Leake, sorry, and make sure that all of the

48a
exhibits that we’ve admitted are the right ones and
will be going back properly.
Oh, closing arguments, yes. I was going to say 30
minutes. Mr. Gotcher, I imagine that is plenty for you,
I have a feeling.
MR. WALLACE: That would be great, Judge.
THE COURT: 30 minutes will be fine?
MR. WALLACE: That will be fine.
THE COURT: Okay. That’s what we will do then.
Then they will have the case by 10:30, then they will
wait around to eat lunch, and come back sometime
tomorrow afternoon. Hopefully not too late, but we will
give them as much time as they want.
All right. It didn’t go as long as I was afraid it would,
but then both sides cut their witnesses, so that’s fine.
I will never complain about that, no matter what I said
earlier.
Okay. Anything else, Mr. Wallace?
MR. WALLACE: Nothing from the government,
Your Honor.
MR. GOTCHER: No, Judge.
THE COURT: Okay, thank you. I will see you later
this afternoon.
(2:39 p.m.)

49a
APPENDIX F

